No. _-_____

In The Supreme Court of the United States
_________
RACHEL THREATT,
Petitioner,

v.

RYAN THOMAS FARRELL, et al., on behalf of himself and
all others similarly situated, et al.,
_________

Respondents.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
_________
PETITION FOR A WRIT OF CERTIORARI
_________
THEODORE H. FRANK
(Counsel of Record)
ANNA ST. JOHN
ADAM EZRA SCHULMAN
HAMILTON LINCOLN LAW
INSTITUTE
1629 K Street NW
Suite 300
Washington, DC 20006
(703) 203-3848
ted.frank@hlli.org

QUESTION PRESENTED
A court may award class-action plaintiffs “reasonable
attorney’s fees” under Fed. R. Civ. Proc. 23(h). In interpreting this phrase in statutory contexts, this Court has
disavowed “setting attorney’s fees by reference to a series
of sometimes subjective factors that place unlimited discretion in trial judges and produce disparate results” and
required fees tied to lodestar. Perdue v. Kenny A., 559
U.S. 542, 551 (2010) (cleaned up) (rejecting a 1.75 multiplier of lodestar).
Here, plaintiffs settled class-action litigation over the
legality of $35 overdraft fees charged by Bank of America.
The settlement would refund class members around $1.07
for each $35 fee they had paid. The district court awarded
$14.5 million in fees from class members’ recovery. By
class counsel’s own calculations, this award was for at
most 2,158 hours of work, a rate of over $6,700 an hour, a
multiplier of more than ten times lodestar. The district
court held that it did not have to consider the lodestar in
awarding a reasonable fee, and so it would not.
After objecting class members appealed, the Ninth Circuit affirmed in a 2-1 decision, holding that a district court
does not have to consider the lodestar in awarding reasonable fees under Rule 23(h). The Second, Third, Fifth, and
Sixth Circuits disagree. The Ninth Circuit’s decision in
this case thus continues a circuit split on this issue.
The question presented is:
Whether, and to what degree, a district court must consider counsel’s lodestar in awarding “reasonable attorney’s fees” under Rule 23(h).

ii
PARTIES TO THE PROCEEDING
Petitioner Rachel Threatt was an objector in the district court proceedings and appellant in the court of appeals proceedings.
Respondents Ryan Thomas Farrell; Patrick Michael
Farrell; Timothy Gaelan Farrell; Brooke Ann Farrell;
Ronald Dinkins; Tia Little; and Larice Addamo were
named plaintiffs in the district court proceedings and appellees in the court of appeals proceedings. (The Ninth
Circuit incorrectly listed Joanne Farrell as appellee in the
court of appeals proceedings; she was originally a lead
plaintiff in the district court proceedings, but died in 2018,
and the district court substituted her four children under
Rule 25(a)(1). Dkt. 115; cf. App. 42a.)
Respondent Bank of America, N.A., was defendant in
the district court proceedings and appellee in the court of
appeals proceedings.
Respondents Estafania Osorio Sanchez and Amy Collins were objectors in the district court proceedings and
appellants in the court of appeals proceedings.
Because Petitioner is not a corporation, a corporate disclosure statement is not required under Supreme Court
Rule 29.6.

iii
TABLE OF CONTENTS
Page
QUESTION PRESENTED ......................................

i

PARTIES TO THE PROCEEDINGS.....................

ii

TABLE OF AUTHORITIES ....................................

v

OPINIONS BELOW ..................................................

4

JURISDICTION.........................................................

4

RULE INVOLVED ....................................................

5

STATEMENT OF THE CASE ................................

6

I.

Plaintiffs settle class litigation over Bank
of America’s $35 “Extended Overdrawn
Balance Charges.” ...........................................

6

Rachel Threatt objects....................................

7

III. The district court approves the fees. .............

8

IV. Over a dissent, the Ninth Circuit affirms
and holds a district court may disregard
lodestar. ............................................................

9

REASONS FOR GRANTING THE WRIT ............

11

II.

I.

II.

The Ninth Circuit’s decision compounds
the fracture among circuits over the role of
lodestar in Rule 23(h) fee awards and is inconsistent with this Court’s jurisprudence ...

11

The question presented is important and
frequently recurring .......................................

18

iv
III. The Ninth Circuit is wrong and this case is
a good vehicle to resolve this important
question ............................................................

22

CONCLUSION ...........................................................

25

APPENDICES:
Appendix A
Opinion, Farrell v. Bank of America Corp., N.A.,
Nos. 18-56272, 18-56273, and 18-56371
(9th Cir. Sep. 2, 2020) .................................... App. 1a
Appendix B
Order, Farrell v. Bank of America, N.A., No. 3:16-cv00492-L-WVG
(S.D. Cal. Aug. 31, 2018) .............................. App. 21a
Appendix C
Judgment in a Civil Case, Farrell v. Bank of America,
N.A., No. 3:16-cv-00492-L-WVG
(S.D. Cal. Sep. 19, 2018) .............................. App. 42a
Appendix D
Order Denying Rehearing, Farrell v. Bank of America
Corp., N.A., Nos. 18-56272, 18-56273, and 18-56371 (9th
Cir. Nov. 6, 2020) ........................................ App. 43a
Appendix E
Settlement and Release Agreement, Farrell v. Bank of
America, N.A., No. 3:16-cv-00492-WVG (S.D. Cal. Oct.
30, 2017) ....................................................... App. 45a
Appendix F
Objection of Rachel Threatt, Farrell v. Bank of
America, N.A., No. 3:16-cv-00492-WVG (S.D. Cal. Jun.
18, 2018) ....................................................... App. 77a

v
TABLE OF AUTHORITIES
CASES

Page(s)

Amchem Prods., Inc v. Windsor,
521 U.S. 591 (1997) ..........................................

25

Blanchard v. Bergeron,
489 U.S. 87 (1989) ............................................

12

Blum v. Stenson,
465 U.S. 886 (1984) ..........................................

12

Boeing Co. v. Van Gemert,
444 U.S. 472 (1980) ..........................................

13

Bowling v. Pfizer, Inc.,
102 F.3d 777 (6th Cir. 1996) ............................

15

Brown v. Phillips Petroleum Co.,
838 F.2d 451 (10th Cir. 1988) ..........................

18

Brytus v. Spang & Co.,
203 F.3d 238 (3d Cir. 2000). ...........................

24

Burlington v. Dague,
505 U.S. 557 (1992) ..........................................

12

Camp Drug Store, Inc. v. Cochran Wholesale
Pharm., Inc.,
897 F.3d 825 (7th Cir. 2018). ..........................

17

Chieftain Royalty Co. v. Enervest Energy Institutional Fund XIII-A, L.P.,
888 F.3d 455 (10th Cir. 2018) ..........................

18

Detroit v. Grinnell,
495 F.2d 448 (2d Cir. 1974) .............................

15

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Devlin v. Scardelletti,
536 U.S. 1 (2002) ..............................................

4

Farrell v. Bank of America, N.A.,
827 F. App’x 628 (9th Cir. 2020) ..................... 4, 6, 9,
10, 19, 23, 24
Forbush v. JC Penney Co.,
98 F.3d 817 (5th Cir. 1996) ..............................

23

Fresno County Employees’ Ret. Ass’n v.
Isaacson, 925 F.3d 63 (2d Cir. 2019) ............. 12, 15
Fujiwara v. Sushi Yasuda Ltd.,
58 F. Supp. 3d 424 (S.D.N.Y. 2014) ............... 15, 20
Gisbrecht v. Barnhart,
535 U.S. 789 (2002) ..........................................

11

Goldberger v. Integrated Resources, Inc.,
209 F.3d 43 (2d Cir. 2000) ............................... 14, 15
Hensley v. Eckerhart,
461 U.S. 424 (1983) ..........................................

19

In re AT&T Corp. Sec. Litig.,
455 F.3d 160 (3d Cir. 2006) .............................

16

In re Capital One TCPA Litig.,
80 F. Supp. 3d 781 (N.D. Ill. 2015) ................

17

In re Cendant Corp. Litig.,
264 F.3d 201 (3d Cir. 2001) .............................

15

vii
TABLE OF AUTHORITIES—Continued
Page(s)
In re Cendant Corp. PRIDES Litig.,
243 F.3d 722 (3d Cir. 2001) ............................

16

In re High Sulfur Content Gasoline Prods.
Liab. Litig.,
517 F.3d 220 (5th Cir. 2008) ............................

14

In re Home Depot Inc. Customer Data Sec.
Breach Litig.,
931 F.3d 1065 (11th Cir. 2019) ........................ 12, 17
In re Hyundai and Kia Fuel Econ. Litig.,
926 F.3d 539 (9th Cir. 2019) ............................

2

In re Lithium Ion Batteries Antitrust Litig.,
No.13-md-2420, 2020 U.S. Dist. LEXIS
233607 (N.D. Cal. Dec. 10, 2020) ....................

20

In re Optical Disk Drive Prods. Antitrust
Litig., 959 F.3d 922 (9th Cir. 2020) ................

20

In re Petrobras Sec. Litig.,
828 F. App’x 754 (2d Cir. 2020) ......................

21

In re Rite Aid Corp. Sec. Litig.,
396 F.3d 294 (3d Cir. 2005) ............................. 15, 16
In re Synthroid Mktg. Litig.,
264 F.3d 712 (7th Cir. 2001) ............................

17

In re Thirteen Appeals Arising Out of the
San Juan Dupont Plaza Hotel Fire Litigation,
56 F.3d 295 (1st Cir. 1995) .............................. 16, 17

viii
TABLE OF AUTHORITIES—Continued
Page(s)
In re Trans Union Corp. Privacy Litig.,
629 F.3d 741 (7th Cir. 2011) ............................

17

Johnson v. Georgia Highway Express, Inc.,
488 F.2d 714 (5th Cir. 1974) ............................ 13, 14,
18
Kater v. Churchill Downs Inc.,
Nos. 15-cv-00612, 19-cv-00199,
2021 U.S. Dist. LEXIS 26734
(W.D. Wash. Feb. 11, 2021) ...........................

24

Keil v. Lopez,
862 F.3d 685 (8th Cir. 2017) ............................

17

Moulton v. U.S. Steel Corp.,
581 F.3d 344 (6th Cir. 2009) ............................

15

Murphy v. Smith,
138 S. Ct. 784 (2018) ........................................ 1, 12
Murray v. GMAC Mortg. Corp.,
434 F.3d 948 (7th Cir. 2006) ............................ 3, 19
Pearson v. NBTY, Inc.,
772 F.3d 778 (7th Cir. 2014) ............................

21

Pennsylvania v. Delaware Valley Citizens’
Council for Clean Air,
478 U.S. 546 (1986) .......................................... 1, 2, 3,
11

ix
TABLE OF AUTHORITIES—Continued
Page(s)
Perdue v. Kenny A.,
559 U.S. 542 (2010) ..........................................
11, 12, 13

1, 2,

Petrovic v. AMOCO Oil Co.,
200 F.3d 1140 (8th Cir. 1999) ..........................

17

Plumley v. Austin,
574 U.S. 1127 (2015) ........................................

25

Rawlings v. Prudential-Bache Props., Inc.,
9 F.3d 513 (6th Cir. 1993) ...............................

15

Redman v. RadioShack Corp.,
768 F.3d 622 (7th Cir. 2014) ............................

21

Rosenbaum v. MacAllister,
64 F.3d 1439 (10th Cir. 1995) .......................... 18, 23
Shady Grove Orthopedic Assocs., P.A. v. Allstate Ins. Co.,
559 U.S. 393 (2010) ..........................................

22

Smith v. United States,
502 U.S. 1017 (1991) .......................................

24

Trustees v. Greenough,
105 U.S. 527 (1881) ..........................................

24

Union Asset Management Holding A.G. v.
Dell, Inc.,
669 F.3d 632 (5th Cir. 2012) ............................ 13, 14

x
TABLE OF AUTHORITIES—Continued
Page(s)
Wilson v. Playtika Ltd.,
No. 18-cv-5277, 2021 U.S. Dist. LEXIS
26678 (W.D. Wash. Feb. 11, 2021) ................. 24-25
STATUTES
12 U.S.C. §85 ........................................................

6

12 U.S.C. §86 ........................................................

6

28 U.S.C. §1254(1) ...............................................

4

42 U.S.C. §1983 ....................................................

18

42 U.S.C. §1988 .................................................... 2, 11,
12
42 U.S.C. §1988(b) ...............................................

11

42 U.S.C. §1997e(d)(2).........................................

12

42 U.S.C. § 7401 ...................................................

12

RULES
Fed. R. Civ. P. 23(h) ............................................ 1, 2, 5,
11, 12, 13, 17, 18, 20, 22, 23, 24, 25
OTHER AUTHORITIES
151 Cong. Rec. H723, S726 (daily ed. Feb. 17,
2005) ..................................................................

21

151 Cong. Rec. S999-02, S999 (daily ed. Feb.
7, 2005) ..............................................................

21

xi
TABLE OF AUTHORITIES—Continued
Page(s)
151 Cong. Rec. S1225, S1228 (daily ed. Feb.
10, 2005) ............................................................

21

Lester Brickman, Effective Hourly Rates of
Contingency-Fee Lawyers: Competing
Data and Non-Competitive Fees, 81 Wash.
U. L. Q. 653 (2003). .........................................

19

Paul D. Clement, The Ethics of Lawyers in
Government: Lawyering in the Supreme
Court, 38 Hofstra L. Rev. 909 (2010) .............

2

John C. Coffee, The PSLRA and Auctions,
N.Y.L.J., May 17, 2001 ....................................

20

Matt Egan, Banks make billions on overdraft
fees. Biden could end that, CNN Business
(Oct. 12, 2020) ...................................................

3

Theodore Eisenberg et al., Attorneys’ Fees in
Class Actions: 2009-2013, 92 N.Y.U. L.
Rev. 937 (2017) .................................................

20

Daniel Fisher, Lawyers Won 10x Fee Payoff
By Avoiding Competition, Objector
Claims, Forbes (May 7, 2015) ........................

19

Brian T. Fitzpatrick, An Empirical Study of
Class Action Settlements and Their Fee
Awards, 7 J. Empirical Legal Stud. 811
(2010) .................................................................

20

xii
TABLE OF AUTHORITIES—Continued
Page(s)
Neil M. Gorsuch & Paul B. Matey, Settlements in Securities Fraud Class Actions:
Improving Investor Protection (2005) ..........

10

Laural L. Hooper & Marie Leary, Auctioning the Role of Class Counsel in Class Action Cases: A Descriptive Study, Federal
Judicial Center (Aug. 29, 2001) ......................

20

Marcel Kahan & Linda Silberman, The Inadequate Search for “Adequacy” in Class Actions: A Critique of Epstein v. MCA, Inc.,
73 N.Y.U. L. Rev. 765 (1998) ..........................

21

Joseph Ostoyich and William Lavery, Looks
Like Price-Fixing Among Class Action
Plaintiffs Firms, Law360 (Feb. 12, 2014) ......

17

5 William B. Rubenstein, et al., Newberg on
Class Actions (5th ed. 2014)............................ 13, 18
S. Rep. No. 109-14 (2005) ....................................

21

Stephen M. Shapiro, et al., Supreme Court
Practice (11th ed. 2019) ...................................

18

Vaughn R. Walker & Ben Horwich, The Ethical Imperative of a Lodestar Cross-Check:
Judicial Misgivings About “Reasonable
Percentage” Fees in Common Fund Cases,
18 Geo. J.L. Ethics 1453 (2005) ......................

10

xiii
TABLE OF AUTHORITIES—Continued
Page(s)
Brian Wolfman & Alan B. Morrison, Representing the Unrepresented in Class Actions Seeking Monetary Relief, 71 N.Y.U.
L. Rev. 439 (1996) ............................................

10

1
PETITION FOR WRIT OF CERTIORARI
In statutory contexts, this Court has repeatedly opined
on the need for objective standards when courts award attorney’s fees. Its jurisprudence consistently criticizes
multiple-factor tests that give “very little actual guidance
to district courts. Setting attorney’s fees by reference to a
series of sometimes subjective factors placed unlimited
discretion in trial judges and produced disparate results.”
Perdue v. Kenny A., 559 U.S. 542, 551 (2010) (quoting
Pennsylvania v. Delaware Valley Citizens’ Council for
Clean Air, 478 U.S. 546, 563 (1986)); see also Murphy v.
Smith, 138 S. Ct. 784, 790 (2018) (rejecting statutory interpretation that would have reintroduced “unguided and
freewheeling” fee-setting “and the disparate results that
come with it”).
But when it comes to a “reasonable attorney’s fee” in a
class action under Fed. R. Civ. Proc. 23(h), the Court has
not interpreted the phrase since it added the rule in the
2003 amendments. Disparate results are the standard in
the fractured jurisprudence of lower courts. While courts
agree that an award of lodestar—the number of hours the
attorneys and their employees worked multiplied by the
hourly rates prevailing in the community—is presumptively reasonable, they differ widely on when and what size
of a multiplier is permissible, or even whether courts must
consider lodestar at all. The Ninth Circuit’s decision conflicts with decisions of the Second, Third, Fifth, and Sixth
Circuits on the fundamental question of whether and how
district courts should consider attorneys’ lodestar in
awarding a reasonable attorney’s fee under Rule 23(h).
The Ninth Circuit’s decision leads to the “disparate results” this Court has criticized elsewhere. The district
court disregarded lodestar in awarding $14.5 million for

2
2,158 hours of work—over $6,700 an hour, and perhaps
over $10,000 an hour if petitioner was correct that class
counsel improperly exaggerated the submitted hours. The
Ninth Circuit’s reasoning would permit both an award of
the original fee request of $16.65 million (and perhaps over
$22 million as a percentage of the putative common fund)
and an award of under a million dollars if the district court
had chosen to scrutinize the submitted lodestar and refused to award a multiplier. Both a “thirty-three percent”
award and a “lodestar method” are “reasonable” and
within a district court’s discretion in the Ninth Circuit. In
re Hyundai and Kia Fuel Econ. Litig., 926 F.3d 539, 571
(9th Cir. 2019) (en banc) (citing cases). When the permissible range of “reasonable” fees has such a wide scope,
then district courts have exactly the sort of “unlimited discretion” Kenny A. and Delaware Valley condemned.
The “fundamental asymmetry” between 42 U.S.C.
§1988 standards in civil-rights litigation and the freewheeling Rule 23(h) application in class-action litigation is
especially problematic under the Ninth Circuit’s decision.
Paul D. Clement, The Ethics of Lawyers in Government:
Lawyering in the Supreme Court, 38 Hofstra L. Rev. 909,
916 (2010). The $14.5 million fee comes from a common
fund of $37.5 million intended to partially refund class
members for the disputed overdraft fee—providing class
members a mere $1.07 for every disputed $35 fee they
paid. Class-action settlements are compromises, but the

3
class—lower-income bank customers paying fees for overdrafting their checking accounts 1—is compromising 97%
of their claims here without any compromise for the attorneys asking and receiving thousands of dollars an hour.
Either the court is richly rewarding attorneys for a “sellout” of their clients’ meritorious claims, or attorneys are
receiving millions of dollars for a nuisance settlement of
meritless litigation. Murray v. GMAC Mortg. Corp., 434
F.3d 948, 952 (7th Cir. 2006) (Easterbrook, J.). Courts
should not encourage either behavior with massive fees,
and neither scenario merits over ten times the fee that vindicating significant civil rights does.
The question is important because the resulting windfalls transfer hundreds of millions of dollars from poor and
middle-class consumers to much wealthier attorneys and
encourages forum shopping in the Ninth Circuit where the
law allows this result.
The Court should grant certiorari to resolve the circuit
conflict, provide “actual guidance to district courts” on
when and to what degree multipliers of lodestar are permissible, and correct a serious abuse of the class-action
mechanism. Delaware Valley, 478 U.S. at 563. The stark
inequities of this case provide an excellent vehicle to resolve this question.

According to the Consumer Financial Protection Bureau, nine
percent of all accounts pay 79% of all overdraft and non-sufficient fund
fees. Matt Egan, Banks make billions on overdraft fees. Biden could
end that, CNN Business (Oct. 12, 2020).
1

4
OPINIONS BELOW
The Ninth Circuit’s opinion is reported at 827 F. App’x
628 and reproduced at App. 1a. The opinion of the District
Court for the Northern District of California is unpublished and reproduced at App. 21a.
JURISDICTION
The court of appeals entered judgment on September 2, 2020. Timely petitions for rehearing en banc were
denied on November 6, 2020. App. 43a. Because of
COVID-19, the Court extended the time to file this petition to April 5, 2021. This Court has jurisdiction under 28
U.S.C. §1254(1). As a class member who objected to the
fee request and settlement, Petitioner has standing to appeal the final judgment. Devlin v. Scardelletti, 536 U.S. 1
(2002).

5
RULE INVOLVED
Federal Rule of Civil Procedure 23 provides:
***
(h) Attorney's Fees and Nontaxable Costs. In a
certified class action, the court may award reasonable attorney's fees and nontaxable costs that are
authorized by law or by the parties’ agreement.
The following procedures apply:
***
(2) A class member, or a party from whom
payment is sought, may object to the motion.
(3) The court may hold a hearing and must
find the facts and state its legal conclusions
under Rule 52(a).
***

6
STATEMENT OF THE CASE
I.

Plaintiffs settle class litigation over Bank of
America’s $35 “Extended Overdrawn Balance
Charges.”

Under Deposit Agreements with its customers, Bank of
America charges a $35 fee anytime a deposit account
holder writes a check against insufficient funds. When a
deposit account holder thus overdrafts his or her account,
the Bank has discretion over whether to honor the overdrawn check by advancing funds to the payee sufficient to
cover the note. If the Bank advanced the funds, deposit
account holders were obligated under the Deposit Agreement to pay back the Bank’s advance plus any fees incurred. Failure to do so within five days triggers a second
fee, a $35 Extended Overdrawn Balance Charge
(“EOBC”). App. 21a–22a.
Several suits challenged this second fee as usurious,
theorizing that the $35 EOBC exceeded the interest rate
permitted by the National Banking Act, 12 U.S.C. §§85,
86. At least nine courts in six circuits agreed that EOBCs
are not “interest” and dismissed these suits. App. 5a (listing cases). The district court here, however, denied the
Bank’s motion to dismiss, but agreed to certify an interlocutory appeal of that denial, and the Ninth Circuit
granted permissive interlocutory appeal. App. 22a–23a.
While the appeal was pending and before any formal
discovery, the parties settled in October 2017. App. 45a.
The Bank agreed to cease charging EOBCs for five years;
create a $37.5 million fund to pay attorney’s fees and settlement expenses and provide partial pro rata refunds for
about $756 million of previous EOBC charges; and formally provide $29.1 million of debt reduction to class members whose bank accounts closed with an outstanding

7
balance stemming from one or more EOBC’s. App. 23a–
24a. The roughly seven million class members (App. 26a)
would release their claims. App. 56a–58a; App. 86a n.1.
Class attorneys filed a request for $16,650,000 in fees
on the theory that they were entitled to 25% of the putative $66.6 million settlement value. They asserted a lodestar of $1,428,047.50 for 2,158 hours of work,
acknowledging that they were requesting a multiplier of
11.66, but argued that the district court should not consider the lodestar at all. Dkt. 80-1.
II. Rachel Threatt objects.
Class member Rachel Threatt, who had paid multiple
EOBCs to the Bank in the class period, timely objected to
the fee request through pro bono counsel.
Threatt noted that a multiplier of over eleven was by
itself unacceptable for a settlement that refunded such a
small percentage of class members’ fees because of the resulting exorbitant hourly rate. Threatt also objected that
the 2,158-hour figure was exaggerated because it included
343 hours of work on two other unsuccessful cases, the
hours spent on the fee application, and a bloated 561.75
hours by eight attorneys on settlement mediation, negotiation, and drafting. With a real figure of about 1,400 hours,
the lodestar was about $926 thousand, and the attorneys
were seeking a multiplier of over eighteen. App. 86a–98a.
Threatt also challenged the valuation of the settlement
as a rationalization for the fees, arguing that the
$16,650,000 request as unreasonably more than 44% of the
$37.5 million in real common-fund cash value. App. 99–105.
Threatt argued that the parties overstated the settlement
value because the $29.1 million in “debt reduction” was illusory. The Bank did not pursue or sell the debts of former
customers whose accounts it had closed with outstanding

8
balances. The Bank almost certainly had already written
off all or most of that sum as a loss on its books. The elimination of EOBCs in the future could not support a fee
award because it was compromising the claims of customers with past injuries for the benefit of different customers. And nothing stopped the Bank from offsetting the loss
of EOBC revenue with a different fee schedule that might
make class members worse off.
III. The district court approves the fees.
In response to objections, class counsel reduced their
fee prayer to $14.5 million. App. 36a.
The district court then approved the settlement and
$14.5 million fee request in full. The district court did not
ask, and the Bank did not disclose, how much of the outstanding forgiven debt the Bank had already written off.
It nevertheless held that the debt relief was not illusory
because the Bank could hypothetically choose to start proceedings to collect, though there was no evidence the Bank
ever considered doing so. App. 35a.
The court held that it “has discretion to not apply the
lodestar cross check” and concluded without additional
reasoning “The Court therefore finds it proper to exercise
this discretion and not apply the lodestar cross check.”
App. 38a–39a. It thus made no findings on hours or rates,
though praised class counsel’s “tenacity” in a “hard fought
battle.” App. 38a. The court noted the “substantial risk of
non-payment in confronting the adverse legal landscape.”
Id. Using the putative $66.6 million value of the settlement, the court held a 21.1% percentage-of-fund request
reasonable, and awarded the full $14.5 million. App. 39a.
Threatt and two other objectors timely appealed. Appellants were supported by an amicus brief of seven state

9
attorneys general urging the Ninth Circuit to require
lodestar crosschecks. App. 18a.
IV. Over a dissent, the Ninth Circuit affirms and holds
a district court may disregard lodestar.
The Ninth Circuit affirmed. App. 1. The Court found it
noteworthy that all of the previous attempts to bring identical litigation had foundered and thus it was “exceptional”
for the attorneys to recover a small fraction of the disputed fees. App. 5a. Applying Ninth Circuit precedent,
App. 4a, it held there was no obligation to perform a lodestar crosscheck, so there was no abuse of discretion in the
district court’s fee award of thousands of dollars an hour.
The court concluded that “neither the settlement nor the
fee award raises an eyebrow.” App. 6a.
Senior Circuit Judge Kleinfeld dissented. App. 7a–20a.
He agreed with objectors that the debt reduction was
worth “nowhere near $29.1 million” and likely merely “a
way to puff the value of the settlement by plaintiffs’ counsel and the Bank, in order to get the attorneys’ fees approved.” App. 10a–11a. Similarly, the injunctive relief “is
speculative, uncalculated, and likely to be a negligible
fraction of the valuation the district court accepted”; the
court should not have “attribute[ed] any value to the class
of the injunctive relief.” App. 11a–14a. The “economic reality” alone made the award an abuse of discretion even
without considering lodestar. App. 14a.
The dissent also criticized any argument “justify[ing]
the fee in part by the ‘difficulty’ of the case.” App. 14a–15a.
That plaintiffs had previously lost identical cases on legal
grounds suggested that the case was “bad,” rather than
“difficult”: “To treat that sort of case as justifying an extraordinarily high fee because of ‘difficulty’ would reward
attorneys for bringing meritless cases.” App. 15a.

10
Of most relevance to this petition, the dissent held that
“The district court also erred by not considering a lodestar
calculation.” App. 14a–18a. “Though circuit law does not
necessarily require a cross check, it probably should.”
App. 17a. Failing to do so “breaches the district court’s fiduciary duty to the class.” App. 18a. Judge Kleinfeld
noted:
Now-Justice Gorsuch has recommended reversing
the trend toward percentage fees without cross
checks, and scholarly literature has developed urging the necessity of a lodestar cross check, including
an article co-authored by experienced district judge
Vaughn Walker.
App. 18a (citing Neil M. Gorsuch & Paul B. Matey, Settlements in Securities Fraud Class Actions: Improving Investor Protection 22–23 (2005); Vaughn R. Walker & Ben
Horwich, The Ethical Imperative of a Lodestar CrossCheck: Judicial Misgivings About “Reasonable Percentage” Fees in Common Fund Cases, 18 Geo. J.L. Ethics
1453, 1454 (2005); Brian Wolfman & Alan B. Morrison,
Representing the Unrepresented in Class Actions Seeking Monetary Relief, 71 N.Y.U. L. Rev. 439, 503 (1996)).
On November 6, 2020, the Ninth Circuit denied two petitions for rehearing en banc despite Judge Kleinfeld’s
nonbinding recommendation of the petitions’ grant.
App. 43a.
This Petition followed.

11
REASONS FOR GRANTING THE WRIT
This petition presents an ideal and timely opportunity
for the Court to resolve a deep circuit split over the use of
lodestar analysis in class-action fee awards and provide
much-needed guidance to the lower courts on a recurring
issue of substantial importance.
I.

The Ninth Circuit’s decision compounds the fracture among circuits over the role of lodestar in
Rule 23(h) fee awards and is inconsistent with this
Court’s jurisprudence.

Rule 23(h) authorizes a “reasonable attorney’s fee,”
which is precisely the type of fee authorized under 42
U.S.C. § 1988(b) and many other statutes authorizing fee
shifting. In the Section 1988 context, this Court has rejected multiple-factor tests because they give “very little
actual guidance to district courts. Setting attorney’s fees
by reference to a series of sometimes subjective factors
placed unlimited discretion in trial judges and produced
disparate results.” Kenny A., 559 U.S. at 551 (quoting Delaware Valley, 478 U.S. at 563). Thus, “the lodestar figure
has, as its name suggests, become the guiding light of our
fee-shifting jurisprudence,” Id. (quoting Gisbrecht v.
Barnhart, 535 U.S. 789, 801 (2002)) (cleaned up). Though
the lodestar approach “is not perfect,” it is “objective, and
thus cabins the discretion of trial judges, permits meaningful judicial review, and produces reasonably predictable results.” Id. Enhancements above lodestar are
permissible, but “rare and exceptional, and require specific evidence that the lodestar fee would not have been
adequate to attract competent counsel.” Id. at 554
(cleaned up).
This Court has applied the same approach in other contexts. In Pennsylvania v. Delaware Valley Citizens’

12
Council for Clean Air, 478 U.S. 546, 565 (1986), the Court
incorporated the Section 1988 standards into fee awards
under the Clear Air Act, 42 U.S.C. § 7401 ff., noting that
there was a “strong presumption that the lodestar figurethe product of reasonable hours times a reasonable raterepresents a ‘reasonable fee’ is wholly consistent with the
rationale behind the usual fee-shifting statute....” In
Blanchard v. Bergeron, the Court stated that “we have
said repeatedly that ‘[t]he initial estimate of a reasonable
attorney's fee is properly calculated by multiplying the
number of hours reasonably expended on the litigation
times a reasonable hourly rate.’” 489 U.S. 87, 94-95 (1989)
(quoting Blum v. Stenson, 465 U.S. 886, 888 (1984)). Thus,
the lodestar inquiry is “the guiding light of our fee shifting
jurisprudence.” Burlington v. Dague, 505 U.S. 557, 562
(1992). See also Murphy v. Smith, 138 S.Ct. 784, 790 (2018)
(rejecting petitioner’s attempt to “(re)introduce into [42
U.S.C.] §1997e(d)(2) exactly the sort of unguided and freewheeling choice—and the disparate results that come with
it—that this Court has sought to expunge from practice
under §1988.”).
But the Court has not interpreted Rule 23(h) since the
Federal Rules added it in the 2003 amendments. And the
courts of appeals are consistently inconsistent with respect to whether and to what extent district courts must
consider lodestar in awarding fees under Rule 23(h). Several expressly rely on the multiple-factor test precedent
that this Court has repeatedly criticized as subjective and
producing “disparate results”; none follow the Kenny A.
framework in the context of a common-fund award. E.g.,
In re Home Depot Inc. Customer Data Sec. Breach Litig.,
931 F.3d 1065, 1085 (11th Cir. 2019) (citing cases); Fresno
County Employees’ Ret. Ass’n v. Isaacson, 925 F.3d 63,
68–72 (2d Cir. 2019) (same). These courts distinguish

13
Kenny A. without addressing that case’s reasoning condemning “unlimited discretion” and “disparate results.”2
The Ninth Circuit’s decision is not only inconsistent
with the Supreme Court’s preference for “cabin[ing] the
discretion of trial judges,” but conflicts with decisions of
the Second, Third, Fifth, and Sixth Circuits on the fundamental question of whether and how district courts should
consider the attorneys’ lodestar in awarding a reasonable
attorney’s fee under Rule 23(h). See 5 William B. Rubenstein, et al., Newberg on Class Actions § 15:88 (5th ed.
2014) (identifying conflicting approaches among the Circuits). This Court’s intervention is needed to establish a
nationwide standard for the role of a lodestar crosscheck
in Rule 23(h) awards and thereby prevent class attorneys
nationwide from flocking to the Ninth Circuit at the expense of class members because its law allows them to recover fees disproportionately greater than their time and
effort warrant.
This conflict is stark. The Fifth Circuit uses a mandatory
approach. Like most circuits, the Fifth Circuit allows district courts to choose between the percentage method and
the lodestar method as the baseline method for awarding
attorney’s fees from a common fund created by a class-action settlement. If a district court chooses to use the percentage method, however, the court must also apply “a
meticulous Johnson analysis” as a “crosscheck” to ensure
the fee is reasonable. Union Asset Management Holding
A.G. v. Dell, Inc., 669 F.3d 632, 644 (5th Cir. 2012). The
factors set forth in Johnson v. Georgia Highway Express,

Boeing Co. v. Van Gemert, 444 U.S. 472 (1980), held that attorney’s fees from a common fund were appropriate, but did not discuss
the appropriate methodology for calculating such fees.
2

14
Inc., 488 F.2d 714 (5th Cir. 1974), include a calculation of
the time and labor, i.e., lodestar, of the attorneys and, indeed, is envisioned to “be more searching than the ‘lodestar cross-check’ commonly referenced in other courts.”
Union Asset Mgmt., 669 F.3d at 644 n.42. See also In re
High Sulfur Content Gasoline Prods. Liab. Litig., 517
F.3d 220, 228 (5th Cir. 2008) (“When a district court
awards attorneys’ fees it must explain how each of the
Johnson factors affects its award.”).
The Second Circuit, while speaking in less mandatory
terms, aligns with the Fifth Circuit in strongly preferring
that district courts apply a lodestar crosscheck when
awarding fees from a common fund. In Goldberger v. Integrated Resources, Inc., 209 F.3d 43, 50 (2d Cir. 2000), the
Second Circuit reaffirmed its “express goal” of “prevent[ing] unwarranted windfalls for attorneys.” While allowing district courts to calculate attorney’s fees using a
percentage method, the court “encourage[d] the practice
of requiring documentation of hours as a ‘cross check’ on
the reasonableness of the requested percentage” and emphasized that “courts should continue to be guided” by the
time and labor expended by counsel, among other relevant
factors. Id. This holding follows the Second Circuit’s longestablished rule that “unless time spent and skill displayed [are] used as a constant check on applications for
fees, there is a grave danger that the bar and bench will
be brought into disrepute, and there will be prejudice to
those whose substantive interests are at stake and who are

15
unrepresented except by the very lawyers who are seeking compensation.” Detroit v. Grinnell, 495 F.2d 448, 47071 (2d Cir. 1974). 3
The Sixth Circuit also holds that district courts should
consider the lodestar elements to determine the reasonableness of a fee awarded on a percentage basis. In
Moulton v. U.S. Steel Corp., 581 F.3d 344, 352 (6th Cir.
2009), the Sixth Circuit remanded an attorney’s fee award
in a class action even though the percentage-based award
was not “on its face” unreasonable. The court held that the
district court must provide its “reasons for ‘adopting a
particular methodology and the factors considered in arriving at the fee,’” which should “often, but not invariably”
include, among other things, the lodestar value of the attorneys’ services. Id. (quoting Rawlings v. PrudentialBache Props., Inc., 9 F.3d 513, 516 (6th Cir. 1993) and citing Bowling v. Pfizer, Inc., 102 F.3d 777, 780 (6th Cir.
1996)). Contrast here, where the Ninth Circuit affirmed
such a fee award when the district court failed to provide
reasons for its adopted methodology. App. 38a.
Similarly in tension with the Ninth Circuit standard is
the Third Circuit’s decision in In re Rite Aid Corp. Sec.
Litig., 396 F.3d 294, 305 (3d Cir. 2005). Showing how important the crosscheck is, the Third Circuit remanded a

In practice, since Goldberger, “courts have generally refused
multipliers as high as 2.03” in the Second Circuit. See Fujiwara v. Sushi Yasuda Ltd., 58 F. Supp. 3d 424, 438 (S.D.N.Y. 2014) (cleaned up).
See also Fresno County Employees’ Ret. Ass’n, 925 F.3d at 72 (“Fee
requests that deviate wildly from the unenhanced lodestar fee are unlikely to pass th[e] cross-check….”). This approach contrasts sharply
with the lodestar multiplier of more than ten (and possibly more than
sixteen) affirmed by the Ninth Circuit.
3

16
fee award in Rite Aid where the district court improperly
applied the attorneys’ billing rates in its lodestar crosscheck. The Third Circuit found such an improperly calculated crosscheck “inconsistent with the exercise of sound
discretion.” Id. The court held that application of a lodestar crosscheck is “sensible,” reasoning that it “serves the
purpose of alerting the trial judge that when the multiplier
is too great.” Id. at 306. The court thus ordered reconsideration of the fee “with an eye toward reducing the
award.” Id. See also In re AT&T Corp. Sec. Litig., 455
F.3d 160, 164 (3d Cir. 2006) (reaffirming the “recommend[ation] that district courts use the lodestar method
to cross-check the reasonableness of a percentage-of-recovery fee award” and reduce the award when the multiplier is too great).
At times, the Third Circuit has used even more forceful
language, “strongly suggest[ing] that a lodestar multiplier
of 3 … is the appropriate ceiling for a fee award.” In re
Cendant Corp. PRIDES Litig., 243 F.3d 722 (3d Cir. 2001)
(rejecting percentage-based fee award that was seven to
ten times the lodestar); In re Cendant Corp. Litig., 264
F.3d 201, 285 n.7 (3d Cir. 2001) (suggesting Cendant
PRIDES may have elevated lodestar crosscheck from being a recommendation to a requirement).
The Ninth Circuit’s approach to lodestar crosschecks
joins the First, Eighth, and Eleventh Circuits on the other
side of a deep fracture among the circuit courts. The First
Circuit held in In re Thirteen Appeals Arising Out of the
San Juan Dupont Plaza Hotel Fire Litigation that “the
approach of choice is to accord the district court discretion
to use whichever method, [percentage-of-the-fund] or
lodestar, best fits the individual case,” with that discretion
including the choice of whether to use a “combination” of

17
those methods. 56 F.3d 295, 307-08 (1st Cir. 1995). Meanwhile, the Eighth Circuit opined in Keil v. Lopez, 862 F.3d
685, 701 (8th Cir. 2017), that district courts need not conduct a lodestar crosscheck to verify the reasonableness of
a Rule 23(h) award. See also Petrovic v. AMOCO Oil Co.,
200 F.3d 1140, 1157 (8th Cir. 1999) (declining to address
challenges to lodestar data because “the district court’s
approval of the fee under the ‘percentage of the fund’ approach was proper”). Even more recently, the Eleventh
Circuit weighed in, noting that while courts often use a
crosscheck, it is a “time-consuming exercise” and thus not
“required.” Home Depot, 931 F.3d at 1091 n.25.
The Seventh Circuit takes an idiosyncratic approach,
asking courts to approximate a market-based fee and “estimate the contingent fee that the class would have negotiated with the class counsel at the outset had negotiations
with clients having a real stake been feasible.” In re Trans
Union Corp. Privacy Litig., 629 F.3d 741, 744 (7th Cir.
2011); see generally In re Synthroid Mktg. Litig., 264 F.3d
712, 718–20 (7th Cir. 2001). In this context, the amount of
work expended by class counsel bears on the market price
for legal fees. Camp Drug Store, Inc. v. Cochran Wholesale Pharm., Inc., 897 F.3d 825, 833 (7th Cir. 2018). But in
practice, this produces disparate results sometimes divorced from lodestar. E.g., In re Capital One TCPA Litig.,
80 F. Supp. 3d 781 (N.D. Ill. 2015) (awarding over
$3,600/hour for recovery of $2.72 per class member because of the lack of a “competitive market” after attorneys
agreed not to compete for lead counsel status (citing Joseph Ostoyich and William Lavery, Looks Like Price-Fixing Among Class Action Plaintiffs Firms, Law360 (Feb.
12, 2014)).
The Tenth Circuit’s law runs both ways, holding in different cases that courts need not evaluate time and labor

18
using the lodestar formulation, but also that district courts
must consider all Johnson factors, and that a 3.16 multiplier is enough to shock the conscience. Compare Brown
v. Phillips Petroleum Co., 838 F.2d 451, 456 (10th Cir.
1988), with Rosenbaum v. MacAllister, 64 F.3d 1439, 1445,
1447–48 (10th Cir. 1995), and Chieftain Royalty Co. v.
Enervest Energy Institutional Fund XIII-A, L.P., 888
F.3d 455, 459 (10th Cir. 2018).
In sum, the “various federal circuits” currently “provide different directions to their district courts” and their
overall approach to the topic of crosscheck multipliers under Rule 23(h) “is not particularly illuminating.” Rubenstein, et al., Newberg on Class Actions §15:87–88.
These conflicting decisions and approaches illustrate that
there is nothing to be gained by allowing the issue to further “percolate” in the lower courts. The circuit split is
now well developed. Ten circuits have now opined on
whether and how district courts should make use of the
use of the lodestar in awarding fees under Section 23(h).
The circuits are badly split with disparate reasoning and
results apparent. There is no reason to allow these disparate approaches to persist. See Stephen M. Shapiro, et al.,
Supreme Court Practice, §4.4(b) at 4-16 (11th ed. 2019)
(“well-developed” circuit split consideration favoring certiorari).
II. The question presented is important and frequently recurring.
There is a remarkable discrepancy between what is a
“reasonable attorney’s fee” in civil rights litigation and under Rule 23(h) in the Ninth Circuit’s analysis. In a §1983
case, if “a plaintiff has achieved only partial or limited success, [the lodestar figure] may be an excessive amount.”

19
Hensley v. Eckerhart, 461 U.S. 424, 436 (1983). In comparison, the class attorneys here settled for a tiny fraction of
the alleged damages under the National Bank Act, but not
only obtained their full lodestar, but an extraordinary
multiplier of tenfold or more. There are two possibilities.
One is that class counsel brought meritorious litigation,
and settled it quickly on the cheap to maximize their recovery at the expense of their clients. The other is that, as
Judge Kleinfeld suggested, this is a “bad” case, App. 14a,
and class counsel have cashed in a lottery ticket that resulted in huge fee award in a suit that the defendant opted
to dispose of with a nuisance settlement of pennies on the
dollar. Cf. Murray, 434 F.3d at 952. There seems to be no
public-policy reason to prefer rewarding attorneys more
for either scenario than for successful litigation vindicating important civil rights against the government, but the
rule of the Ninth and some other Circuits creates these
perverse incentives.
The windfall here is not unusual. In “class actions, effective hourly rates of tens of thousands of dollars an hour
are not uncommon.” Lester Brickman, Effective Hourly
Rates of Contingency-Fee Lawyers: Competing Data and
Non-Competitive Fees, 81 Wash. U. L. Q. 653, 664 (2003).
An expert study showed that attorneys bringing Telephone Consumer Protection Act litigation average $1,275
an hour in fees over dozens of cases, including nuisance
settlements of a few dollars per class member and losses
that paid nothing. Daniel Fisher, Lawyers Won 10x Fee
Payoff By Avoiding Competition, Objector Claims,
Forbes (May 7, 2015) (discussing fee award of $3,600/hour
in Capital One that materially raised the average).
We know that these awards of thousands of dollars an
hour are windfalls beyond what courts need to encourage
attorneys to engage in meritorious consumer or securities

20
class-action litigation. When courts require attorneys to
submit competitive bids beforehand to obtain lead-counsel
status, high-profile firms consistently submit bids for a
fraction of what district courts award afterward. Laural L.
Hooper & Marie Leary, Auctioning the Role of Class
Counsel in Class Action Cases: A Descriptive Study, Federal Judicial Center (Aug. 29, 2001) at 7-8. “[A] series of
antitrust class action auctions demonstrated that qualified
counsel would generally offer to represent the class for fee
awards in the 10-15% range.” John C. Coffee, The PSLRA
and Auctions, N.Y.L.J., May 17, 2001, at 5. E.g., In re Optical Disk Drive Prods. Antitrust Litig., 959 F.3d 922, 931
(9th Cir. 2020) (competitive bid of 12–13%); In re Lithium
Ion Batteries Antitrust Litig., No.13-md-2420, 2020 U.S.
Dist. LEXIS 233607 (N.D. Cal. Dec. 10, 2020) (awarding
just under 30% fees despite competitive bid for half that
amount).
Courts resolve hundreds of class-action settlements
every year. Brian T. Fitzpatrick, An Empirical Study of
Class Action Settlements and Their Fee Awards, 7 J. Empirical Legal Stud. 811, 813 (2010). Most cases are without
objection, so class counsels are effectively submitting ex
parte applications for fees. Eighty percent of courts
simply grant Rule 23(h) requests without reduction. Theodore Eisenberg et al., Attorneys’ Fees in Class Actions:
2009-2013, 92 N.Y.U. L. Rev. 937, 954 (2017). “Only in rare
instances do courts grant fees that are significantly lower
than the amount requested.” Id. This creates a ratchet of
precedent increasing fees. “By submitting proposed orders masquerading as judicial opinions, and then citing to
them in fee applications, the class action bar is in fact creating its own caselaw on the fees it is entitled to... No wonder that ‘caselaw’ is so generous to plaintiffs’ attorneys.”
Fujiwara v. Sushi Yasuda Ltd., 58 F. Supp. 3d 424, 436
(S.D.N.Y. 2014).

21
Good-faith objectors are few and far between. “[I]ndividual members of the class have such a small stake in the
outcome of the class action that they have no incentive to
… challenge” settlements or fee awards. Redman v. RadioShack Corp., 768 F.3d 622, 629 (7th Cir. 2014). And successfully objecting to oversized attorney’s fees on a
contingency-fee basis is not a viable business model for a
for-profit firm. E.g., In re Petrobras Sec. Litig., 828 F.
App’x 754 (2d Cir. 2020) (affirming reduced lodestar
award of $33 thousand in fees for successful objection winning $47 million for class after successful appeal challenging $11 thousand award).
In addition, the decision below deepened a circuit split
that already created an enormous incentive for forumshopping by plaintiffs’ attorneys seeking to bring and settle nationwide class actions like this one. Exactly the same
suit and result can be more profitable for attorneys in
some circuits than in others, enabling a particularly “sinister” form of forum shopping. Marcel Kahan & Linda Silberman, The Inadequate Search for “Adequacy” in Class
Actions: A Critique of Epstein v. MCA, Inc., 73 N.Y.U. L.
Rev. 765, 775 (1998). Indeed, one of the motivations for
passing the Class Action Fairness Act in 2005 was to reduce, if not eliminate entirely, the problematic effects of
forum shopping nationwide class actions. See, e.g., S. Rep.
No. 109-14, at 13-23; 151 Cong. Rec. S1225, S1228 (daily
ed. Feb. 10, 2005) (statement of Sen. Orrin Hatch); 151
Cong. Rec. H723, S726 (daily ed. Feb. 17, 2005) (statement
of Rep. F. James Sensenbrenner); 151 Cong. Rec. S99902, S999 (daily ed. Feb. 7, 2005) (statement of Sen. Arlen
Specter). The result costs class members money, because
defendants settling class actions are indifferent between
whether the allocation of the cost of settlement goes to attorneys or to class members. Pearson v. NBTY, Inc., 772
F.3d 778, 786 (7th Cir. 2014).

22
The decision below permits district courts to disregard
the time—and the value of that time—that attorneys representing a class spend on a case in setting a reasonable
fee and to do so without providing any reasoning. The result is that class counsel bringing suits in the Ninth Circuit
may realize a windfall, which will come at the expense of
class members whose damages claims created the common fund that pays both their own claims and the attorney’s fees. Fee awards that are often a sizable multiplier
of lodestar for unremarkable settlements are a gigantic
wealth transfer from pension funds and poor- and middleclass consumers to millionaire attorneys.
Rule 23(h) is not yet living up to its promise as part of
the “uniform system of federal procedure.” Shady Grove
Orthopedic Assocs., P.A. v. Allstate Ins. Co., 559 U.S. 393,
416 (2010). Guidance from this Court is thus needed to create objective standards and avoid the “disparate results”
between different types of litigation and among the circuits.
III. The Ninth Circuit is wrong and this case is a good
vehicle to resolve this important question.
Beyond the mature and well-developed fissure between
the Circuits, this petition provides an especially good vehicle for addressing the need for a lodestar crosscheck.
Experienced pro bono counsel represent petitioner, who
has averred that she has no intention of settling her objection for any sort of personal side payment. Dkt. 85-1 ¶8.

23
While petitioner contends that class counsel received
over $10,000/hour here, 4 even under class counsel’s calculations, there is no dispute that this $14.5 million fee is at
least a ten-fold multiplier on class counsel’s ordinary
$662/hour blended rate. On either account, Rule 23(h), interpreted correctly, precludes such an unreasonable windfall. Likewise, there is no dispute that in response to
petitioner’s objection, the district court simply declined to
consider lodestar; it provided no justification other than
“that it was not required.” App. 39a. Nor is there any dispute that the panel majority endorsed the district’s categorical discretion to dispense with any crosscheck of the
lodestar. App. 4a. Especially in matters of class-action fee
awards, it is not always so clear what standards trial and
appellate courts have applied.
The panel majority asserts that the thousands of dollars an hour here for a $1.07 refund per $35 fee did not
cause them to “raise[] an eyebrow.” App. 6a. Respectfully,
that conclusion simply demonstrates that the Ninth Circuit has become inured to inflated fee awards. In our view,
a payday of over $6,700/hour (and perhaps more than
$10,000/hour) for a settlement of pennies on the dollar
should shock the conscience. E.g., Rosenbaum, 64 F.3d at
1447–48 (3.16 multiplier despite district court finding that
award was about 16% of estimated benefit); Forbush v. JC
Penney Co., 98 F.3d 817, 823 (5th Cir. 1996) (affirming district court’s fee award limiting multiplier to 2 after finding

Class counsel’s assertion of risk is especially ironic if one juxtaposes with their submission of hours, given that that submission was
larded with hundreds of hours spent on unsuccessful litigation in other
cases. App. 91–93 & n.6.
4

24
a 4.6 multiplier to be “outrageous”). Common-fund equitable fee awards must be “made with moderation and a jealous regard to the rights of those who are interested in the
fund.” Trustees v. Greenough, 105 U.S. 527, 536–37 (1881).
The dissent is correct, and roughly seven million class
members have at stake a sizable $14.5 million attorney’s
fee payment from their common fund.
While petitioner agrees that Rule 23(h) fees should be
tied to actual (as opposed to hypothetical) class recovery,
lodestar crosschecks have value. They prevent a trial penalty. See Brytus v. Spang & Co., 203 F.3d 238, 247 (3d Cir.
2000). They discourage risk-averse counsel from entering
into quick agreements that amount to a small percentage
of potential recovery. They incentivize counsel to prefer
meritorious litigation over lottery-ticket litigation nuisance settlements of large claims. And they foreclose
hourly windfalls that a functioning marketplace would not
allow.
It is no answer to say that the panel majority’s opinion
is unpublished. The panel majority and district court expressly relied on Ninth Circuit precedent and that precedent includes multiple published decisions, including an en
banc decision. App. 4a, 38a–39a. Moreover, “[n]onpublication must not be a convenient means to prevent review”;
such decisions often create “lingering effect[s] in the Circuit.” Smith v. United States, 502 U.S. 1017, 1020 n.*
(1991) (Blackmun, O’Connor & Souter, JJ., dissenting
from the denial of certiorari). And indeed, courts in the
Ninth Circuit are already citing the panel majority opinion
as support for declining to conduct a lodestar crosscheck
of their own. See Kater v. Churchill Downs Inc., Nos. 15cv-00612, 19-cv-00199, 2021 U.S. Dist. LEXIS 26734 (W.D.
Wash. Feb. 11, 2021) (awarding fees of $38.75 million);
Wilson v. Playtika Ltd., No. 18-cv-5277, 2021 U.S. Dist.

25
LEXIS 26678 (W.D. Wash. Feb. 11, 2021) ($9.5 million).
The Ninth Circuit’s attempt to shield its splintered decision from further review is “yet another disturbing aspect
of the [decision], and yet another reason to grant review.”
Plumley v. Austin, 574 U.S. 1127, 1131–32 (2015) (Thomas
and Scalia, JJ., dissenting from the denial of certiorari).
The Court should take this opportunity to address the
circuit split and ensure that Rule 23(h) is applied uniformly and with the “interests of absent class members in
close view.” Amchem Prods., Inc v. Windsor, 521 U.S. 591,
629 (1997).
CONCLUSION
The Court should grant the petition.
Respectfully submitted,
Theodore H. Frank
(Counsel of Record)
Anna St. John
Adam Ezra Schulman
Hamilton Lincoln Law Institute
1629 K Street NW, Suite 300
Washington, DC 20006
(703) 203-3848
ted.frank@hlli.org
Counsel for Petitioner

APPENDIX

App. i
TABLE OF APPENDICES

Appendix A
Opinion, Farrell v. Bank of America Corp., N.A.,
Nos. 18-56272, 18-56273, and 18-56371
(9th Cir. Sep. 2, 2020) .................................... App. 1a
Appendix B
Order, Farrell v. Bank of America, N.A., No. 3:16-cv00492-L-WVG
(S.D. Cal. Aug. 31, 2018) .............................. App. 21a
Appendix C
Judgment in a Civil Case, Farrell v. Bank of America,
N.A., No. 3:16-cv-00492-L-WVG
(S.D. Cal. Sep. 19, 2018) .............................. App. 42a
Appendix D
Order Denying Rehearing, Farrell v. Bank of America
Corp., N.A., Nos. 18-56272, 18-56273, and 18-56371 (9th
Cir. Nov. 6, 2020) ........................................ App. 43a
Appendix E
Settlement and Release Agreement, Farrell v. Bank of
America, N.A., No. 3:16-cv-00492-WVG (S.D. Cal. Oct.
30, 2017) ....................................................... App. 45a
Appendix F
Objection of Rachel Threatt, Farrell v. Bank of
America, N.A., No. 3:16-cv-00492-WVG (S.D. Cal. Jun.
18, 2018) ....................................................... App. 77a

App. 1a
Appendix A
NOT FOR PUBLICATION

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

JOANNE FARRELL; et al.,
Plaintiffs-Appellees,
ESTAFANIA
SANCHEZ,
Objector-Appellant,

No. 18-56272
OSORIO D.C. No.
3:16-CV-00492-LWVG

V.

BANK
OF
AMERICA MEMORANDUM *
CORPORATION, N.A.
Defendant-Appellee.

*
This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

App. 2a

JOANNE FARRELL; et al.,
Plaintiffs-Appellees,

No. 18-56273
D.C. No.

AMY COLLINS,
Objector-Appellant,

3:16-CV-00492L-WVG

V.

BANK
OF
AMERICA
CORPORATION, N.A.,
Defendant-Appellee.

JOANNE FARRELL; et al.,
Plaintiffs-Appellees,

No. 18-56371

V.

D.C. No.

RACHEL THREATT,

3:16-CV-00492L-WVG

Objector-Appellant,
V.

BANK
OF
AMERICA
CORPORATION, N.A.,
Defendant-Appellee.

App. 3a

Appeal from the United States District Court
for the Southern District of California
M. James Lorenz, District Judge, Presiding
Argued and Submitted March 2, 2020
Pasadena, California
Filed September 2, 2020
Before: KLEINFELD and CALLAHAN, Circuit
Judges, and CHRISTENSEN **, District Judge.
Dissent by Judge KLEINFELD
Objectors-Appellants appeal from the district court’s:
(1) approval of a class action settlement between Defendant-Appellee Bank of America and Plaintiffs-Appellees,
Bank of America account holders; and (2) $14.5 million fee
award to class counsel. We review for abuse of discretion.
In re Bluetooth Headset Prods. Liab. Litig., 654 F.3d 935,
940 (9th Cir. 2011). We affirm both the settlement approval and the fee award.
The district court did not err in approving the settlement over objections to the failure to create subclasses.
The named plaintiffs “fairly and adequately protect[ed]

The Honorable Dana L. Christensen, United States District
Judge for the District of Montana, sitting by designation.
**

App. 4a
the interests of the class.” Fed. R. Civ. P. 23(a)(4). No conflict of interest arose when the differences between members of class did not bear on “the allocation of limited
settlement funds” and when the structure of the settlement appropriately protected “higher-value claims ...
from class members with much weaker ones.” In re
Volkswagen “Clean Diesel” Mktg., Sales Practices, &
Prods. Liab. Litig., 895 F.3d 597, 605 (9th Cir. 2018).
Nor did the district court abuse its discretion in using
the percentage-of-recovery method to calculate fees and
refusing to conduct a lodestar crosscheck. This Court has
consistently refused to adopt a crosscheck requirement,
and we do so once more. See Campbell v. Facebook, 951
F.3d 1106, 1126 (9th Cir. 2020); In re Hyundai & Fuel
Econ. Litig., 926 F.3d 539, 571 (9th Cir. 2019) (en banc);
Bluetooth, 654 F.3d at 944; Stanger v. China Elec. Motor,
Inc., 812 F.3d 734, 738–39 (9th Cir. 2016); Hanlon v.
Chrysler Corp., 150 F.3d 1011, 1029 (9th Cir. 1998), overruled on other grounds by Wal-Mart Stores, Inc. v. Dukes,
564 U.S. 338 (2011); Six (6) Mexican Workers v. Ariz. Citrus Growers, 904 F.2d 1301, 1311 (9th Cir. 1990). The district court acted within its “discretion to choose how [to]
calculate[] fees.” Bluetooth, 654 F.3d at 944.
The district court considered the most pertinent factors influencing reasonableness, and it did not err in finding the fee award reasonable under Federal Rule of Civil
Procedure 23(h). See Online DVD-Rental Antitrust
Litig., 779 F.3d 934, 954–55 (9th Cir. 2015). The court appropriately considered: (1) “the extent to which counsel
‘achieved exceptional results for the class’”; (2) “whether
the case was risky for class counsel”; (3) “whether coun-

App. 5a
sel’s performance ‘generated benefits beyond the cash settlement fund’”; and (4) “the burdens class counsel experienced while litigating the case (e.g., cost, duration,
foregoing other work).” Id. (quoting Vizcaino v. Microsoft
Corp., 290 F.3d 1043, 1048–50 (9th Cir. 2002)).
Most significantly, the district court concluded that
class counsel demonstrated “tenacity and great skill,”
achieving a “remarkable” result in a “hard fought battle”
despite an “adverse legal landscape” and the “substantial
risk of non-payment.” Indeed, excepting the district court
in this particular matter, no court has ever ruled for bank
accountholders on the controlling legal issue. Compare
Farrell v. Bank of Am., N.A., 224 F. Supp. 3d 1016 (S.D.
Cal. 2016) with Fawcett v. Citizens Bank, N.A., 919 F.3d
133 (1st Cir. 2019); Walker v. BOKF, N.A., No. 1:18-cv810-JCH-JHR, 2019 WL 3082496 (D.N.M. July 15, 2019);
Johnson v. BOKF, Nat’l Ass’n, 341 F. Supp 675 (N.D. Tex.
2018); Moore v. MB Fin. Bank, N.A., 280 F. Supp. 3d 1069
(N.D. Ill. 2017); Dorsey v. T.D. Bank, N.A., No. 6:17-cv01432, 2018 WL 1101360 (D.S.C. Feb. 28, 2018); McGee v.
Bank of Am., N.A., No. 15-60480-CIV-COHN/SELTZER,
2015 WL 4594582 (S.D. Fla. July 30, 2015), aff’d 674 F.
App’x 958 (11th Cir. 2017); Shaw v. BOKF, Nat’l Ass’n,
No. 15-CV-0173-CVE-FHM, 2015 WL 6142903 (N.D.
Okla. Oct. 19, 2015); In re TD Bank, N.A. Debit Card
Overdraft Fee Litig., 150 F. Supp. 3d 593, 641–42 (D.S.C.
2015). This was a “risky” case, and the result negotiated
for the class was “exceptional.” Online DVD-Rental, 779
F.3d at 954–55.
We agree with the dissent that the individual cash
distributions were small, but we take a different view of
the value of the injunctive relief. While it can be difficult

App. 6a
to value nonmonetary relief, we have no trouble finding
that the value here exceeds the $29.1 million assigned to it
by the parties. Even more valuable than the debt forgiveness is Defendant-Appellee’s agreement to refrain
from assessing the fees challenged in this lawsuit—over
the five-year moratorium imposed under the settlement
agreement, Defendant-Appellee will forgo assessing $1.2
billion in fees. We do not struggle to conclude, as the district court did, that counsel “generated benefits” far “beyond the cash settlement fund.” Id. at 955.
Applying the abuse of discretion standard, as we
must, we find that the district court reasonably determined that the relevant factors justified a fee award equivalent to 21.1% of the common fund. It was reasonable “not
to perform a crosscheck of the lodestar in this case, given
the difficulty of measuring the value of the injunctive relief.” Campbell, 951 F.3d at 1126. What is more, the award
fell under the 25% benchmark that we have encouraged
district courts to use as a yardstick. Stanger, 812 F.3d at
738; Online DVD-Rental, 779 F.3d at 955. Even if we were
inclined to question the district court’s motive in approving the settlement and awarding fees, we note that the district court’s prior order denying Defendant-Appellee’s
motion to dismiss is inconsistent with the dissent’s suggestion that the district court streamlined its docket at the
expense of faithful adherence to the law.
In short, neither the settlement nor the fee award
raises an eyebrow. We have settled the issue of whether a
lodestar crosscheck is required, and we would not unsettle
our precedent, even if we had the authority to do so.
AFFIRMED.

App. 7a
Farrell v. Bank of America Corp., N.A., No. 18-56272+
KLEINFELD, Senior Circuit Judge, dissenting:
I respectfully dissent.
The district court abused its discretion regarding attorneys’ fees in two respects: by overvaluing the settlement in applying the percentage method, and by failing to
weigh the percentage method against the lodestar
method. The consequence is an unreasonable attorneys’
fee award. “Because the relationship between class counsel and class members turns adversarial at the fee-setting
stage, district courts assume a fiduciary role that requires
close scrutiny of class counsel’s requests for fees and expenses from the common fund.” 1
Bank of America charged customers in the class $35
for each instance of writing a check against insufficient
funds, and—in the event that Bank of America advanced
the customer funds to honor the check—charged another
$35 if the customer did not pay back the advance within
five days. The second $35 fee, referred to as an “Extended
Overdrawn Balance Charge” or an “EOBC,” is all that the
settlement in this case addressed. The initial overdraft fee
was unchallenged. Plaintiffs’ counsel claimed that the

In re Optical Disk Drive Prods. Antitrust Litig., 959 F.3d 922,
930 (9th Cir. 2020).
1

App. 8a
EOBC constituted usurious interest under the National
Bank Act. 2
The district court, though acknowledging that every
other court to rule on the question had decided that it was
not, nevertheless ruled that the EOBC did indeed constitute usurious interest under the National Banking Act.
Bank of America appealed, but before any appellate decision came down, the parties settled.
As part of their settlement, plaintiffs’ lawyers and
Bank of America agreed to class certification if the court
approved the settlement. No class had yet been certified.
The class would consist of around seven million people
who, between February 25, 2014, and December 30, 2017,
had been assessed at least one EOBC that had not been
refunded. Bank of America agreed to a “clear sailing” attorneys’ fees provision, that is, that it would not oppose
any application for attorneys’ fees not exceeding 25% of
the settlement value plus costs and expenses. Bank of
America agreed to pay $37.5 million in cash into a settlement fund, to forgive uncollected EOBCs on its books in
the amount of at least $29.1 million, and to quit assessing
EOBCs for five years beginning December 31, 2017, after
which point it could resume the EOBCs as before. Class
members who had actually paid the $35 EOBC would not
get their $35 back. They would get only the $37.5 million—
less attorneys’ fees, costs, named plaintiff additional
awards, and settlement administrator hourly charges—di-

2

12 U.S.C. §§ 85-86.

App. 9a
vided by the number of class members who had been assessed at least one EOBC which had not been refunded or
charged off, and issued pro rata based on how many
EOBCs each of those class members paid. At oral argument, objectors’ counsel represented that this distribution
worked out to be $1.07 per EOBC for qualifying class
members paid. Each of these class members would thus
get a little over a dollar back for each purportedly usurious
$35 charge that they had paid. For class members who
closed their accounts with an outstanding balance due to
one or more unpaid EOBCs, Bank of America would reduce class members’ indebtedness, but only by $35. This
held true even if the debt exceeded that amount, as when
Bank of America had assessed multiple $35 EOBCs. For
this result, the district court awarded attorneys’ fees of
$14.5 million.
The district court’s rationale for granting this attorneys’ fee award was that it was 21.1% of the cash payments plus the reduction in the amount of uncollected
debt. The district court did not make a lodestar calculation
and did not cross check the $14.5 million against a lodestar
calculation, even though class counsel submitted they had
put only 2,158 hours into the case, about what a new associate at a major firm bills in a year. The $14.5 million fee
amounted to a rate of over $6,700 per hour, as compared
with the $250–$800 rate class counsel submitted as its rate
for attorneys.

App. 10a
We held in Roes v. SFBSC Management, 3 following
earlier decisions, that where a settlement is negotiated before a class has been certified, “settlement approval ‘requires a higher standard of fairness’ and ‘a more probing
inquiry,’” looking for “‘subtle signs’ of collusion” such as a
disproportionate distribution to counsel and a clear sailing
agreement for attorneys’ fees, 4 both of which we have in
the case before us. The district court abused its discretion
by not applying this “more “exacting review.””5
In their settlement, plaintiffs’ counsel and the Bank
agreed that the “debt reduction”—that is, the amount of
uncollected EOBCs that the Bank agreed not to collect—
amounted to $29.1 million. The objectors argued that the
$29.1 million in purported debt forgiveness was greatly
exaggerated or illusory. There was no evidence that the
Bank was suing anyone for or actively attempting to collect these putative debts, and the objectors pointed out
that the bank was highly unlikely to try to collect the $35
“debts.” Indeed, the whole benefit of a class action is that
it is not worth it to most entities to sue for such small
amounts, so it makes no sense to suppose that even though
the Bank’s account holders need a class action to make collection economically practical, the Bank does not. As the
objectors suggest, the Bank’s filing and service fees alone

3

944 F.3d 1035 (9th Cir. 2019).

Id. at 1048–49 (quoting Allen v. Bedolla, 787 F.3d 1218, 1224 (9th
Cir. 2015); Dennis v. Kellogg Co., 697 F.3d 858, 864 (9th Cir. 2012)).
4

Id. at 1049 (quoting Lane v. Facebook, Inc., 696 F.3d 811, 819 (9th
Cir. 2012)).
5

App. 11a
would likely exceed the amounts of the debts in each instance of attempted collection.
The district court suggested that account holders, even
if they were never going to pay the $35, might benefit from
improvement in their credit scores. But this was never
quantified. And because the settlement limits debt forgiveness to only one $35 reduction per class member even
if more than one such fee was charged, the benefit of the
purported credit score improvement is especially dubious
or at least highly speculative. It is worth, if anything, nowhere near $29.1 million.
The district court also suggested that even though the
Bank might never attempt to collect what it had not yet
collected, it might sell the debt. But as the objectors argue,
the sale value of this debt would more than likely be
steeply discounted from its face value because of the impracticality of collecting it. It is hard to believe that the
$29.1 million in “debt reduction” is anything more than a
way to puff the value of the settlement by plaintiffs’ counsel and the Bank, in order to get the attorneys’ fees approved. A debt that is as a practical matter uncollectible,
even if multiplied by a large number of purported debtors,
has negligible or no value. It was an abuse of discretion to
take this pile of worthless debt at face value for purposes
of assessing attorneys’ fees.
The other number the district court used to justify the
attorneys’ fee award was the estimated value of the Bank’s
agreement to an injunction requiring it to stop charging
the EOBCs for a five-year period, to end in 2022. The district court attributed a value of $1.2 billion to this injunctive relief based on the claimed cost to the Bank of ceasing
the practice. In dismissing an objection to giving the debt

App. 12a
relief face value, it stated that even “assuming arguendo
that [the value of the debt relief] was illusory, the Court
finds that the staggering $1.2 billion dollars in injunctive
relief is worth substantially more than $29.1 million to the
denominator.”
In In re Bluetooth Headset Products Liability Litigation, we noted the importance of comparing “the settlement’s attorneys’ fees award and the benefit to the class
or degree of success in the litigation . . . .” 6 Here, no calculation was made of how many, if any, class members might
benefit from this prospective relief, as opposed to nonclass members. Any account holder against whom no
EOBC had been charged during the class period was not
in the defined class, but they would receive some of the
benefit from this injunctive relief. This much of the benefit
of the injunction is to persons not in the class, commensurately reducing any value to class members. For class
members who no longer maintained accounts, the forward-looking injunction would have no value, since the
Bank could not impose late-payment charges on people
who no longer had accounts. The benefit to class members
of the injunctive relief here is speculative, uncalculated,
and likely to be a negligible fraction of the valuation the
district court accepted.

In re Bluetooth Headset Prods. Liab. Litig., 654 F.3d 935, 943
(9th Cir. 2011) (emphasis added).
6

App. 13a
We explained in Staton v. Boeing Co. 7 that “[p]recisely
because the value of injunctive relief is difficult to quantify, its value is also easily manipulable by overreaching
lawyers seeking to increase the value assigned to a common fund.” 8 Therefore, we held, “only in the unusual instance where the value to individual class members of
benefits deriving from injunctive relief can be accurately
ascertained may courts include such relief as part of the
value of a common fund for purposes of applying the percentage method of determining fees.”9 Similarly, we held
in Roes v. SFBSC that “because of the danger that parties
will overestimate the value of injunctive relief in order to
inflate fees, courts must be particularly careful when ascribing value to injunctive relief for purposes of determining attorneys’ fees, and avoid doing so altogether if the
value of the injunctive relief is not easily measurable.”10
Under Staton, the district court erred in valuing the benefit of the injunctive relief to the class at $1.2 billion based
on its cost to Bank of America rather than its value to the
class. Because this valuation of $1.2 billion is in error, the
district court committed legal error to the extent it determined that “the staggering $1.2 billion in injunctive relief”
justified the $14.5 million attorneys’ fee award. Moreover,

7

Staton v. Boeing Co., 327 F3d 938 (9th Cir 2003).

8

Id. at 974.

9

Id.

10

Roes, 944 F.3d at 1055.

App. 14a
under Staton and Roes, the district court abused its discretion by attributing any value to the class of the injunctive relief, much less the face value claimed.
Considering the value of the settlement to the class—
$37.5 million in cash plus some indeterminate and uncalculated amount in debt reduction—the attorneys’ fees of
$14.5 million constituted perhaps slightly less (but probably not much less) than 39% percent of the putative common fund. Our controlling authority generally sets a 25%
“benchmark” for attorneys’ fees calculated using the percentage method. 11 Thus the award here, even without considering the lodestar, ought to be reversed as an abuse of
discretion once the economic reality of the amount is considered.
The district court, and the panel majority, justify the
fee in part by the “difficulty” of the case. There are different kinds of difficult cases. One is when there is great legal
complexity, or a vast amount of discovery, or coordination
of many parties, or extremely complex damages. Another
kind of difficulty is when it is just a bad case, perhaps a
negligence case where duty and breach of the duty of care
are pretty clear, but there are plainly no damages. Suppose, for example, the driver with the right of way sues the
driver who ran a stop sign and almost hit him but did not,
for negligence. That case would be difficult because it is
meritless and should not be brought at all. It would earn a
costs award against the plaintiff, not an award in favor of

In re Hyundai & Kia Fuel Econ. Litig., 926 F.3d 539, 570 (9th
Cir. 2019) (en banc).
11

App. 15a
plaintiff’s attorneys. The district court explanation, accepted by the majority, of why this case was difficult, that
all the other courts to consider the question had gone the
other way, sounds more like the no-damages negligence
case than the massive and complex but meritorious case.
This case involved no difficulty at all, in the sense of how
much work was needed from counsel. There was nothing
to it but a legal question, whether the second fee could be
considered usurious, all the established precedent said no,
and plaintiff’s attorney obtained a ruling from the district
court, never tested on appeal, and contrary to all the established precedent. To treat that sort of case as justifying
an extraordinarily high fee because of “difficulty” would
reward attorneys for bringing meritless cases. Difficulty
of that sort cannot justify a discretionary award of extraordinarily high attorney’s fees.
The district court also erred by not considering a lodestar calculation. Its only stated justification for avoiding
this cross check was that controlling law did not require
cross checking against the lodestar; it did not claim that
the lodestar cross check would be uninformative or unhelpful. In Bluetooth, we noted that the first of the twelve
Kerr factors for evaluating the reasonableness of attorneys’ fees is “the time and labor required,”12 and we held
that the district court’s discretion in choosing its method
of awarding attorneys’ fees “must be exercised so as to

Bluetooth, 654 F.3d at 942 n.7 (quoting Kerr v. Screen Extras
Guild, Inc., 526 F.2d 67, 70 (9th Cir. 1975)).
12

App. 16a
achieve a reasonable result.” 13 Interpreting reasonableness, we held that, “for example, where awarding 25% of
a ‘megafund’ would yield windfall profits for class counsel
in light of the hours spent on the case, courts should adjust
the benchmark percentage or employ the lodestar method
instead.” 14 In Bluetooth, in part because the district court
did not precisely calculate what the lodestar amount would
be—despite stating that it was applying the lodestar
method—we vacated and remanded. 15 We faulted the district court’s exercise of discretion not only because of “the
absence of explicit calculation or explanation of the district
court’s result,” but also because “the district court declined to reduce the award because the injunctive relief
and cy pres payment provided ‘at least minimal benefit’”
to the class. 16 In other words, because the injunctive relief
and cy pres payment were not calculated, “[w]ith neither
a lodestar figure nor a sense of what degree of success this
settlement agreement achieved, we ha[d] no basis for affirming the fee award as unreasonable under the lodestar
approach.” 17
While not requiring a cross check, Bluetooth notes that
“we have also encouraged courts to guard against an unreasonable result by cross-checking their calculations

13

Bluetooth, 654 F.3d at 942.

14

Id.

15

Id. at 943, 945.

16

Id. at 943-944.

17

Id. at 944.

App. 17a
against a second method.” 18 We have held that “[t]he 25%
benchmark rate, although a starting point for analysis,
may be inappropriate in some cases,” 19 and that it “must
be supported by findings that take into account all of the
circumstances of the case.” 20
Our cases holding that a cross check is not necessarily
required do not open the door to mechanical application of
a percentage award to putative common funds that include
speculative and uncalculated value in the form of debt reduction. We noted in Bluetooth that “even though a district court has discretion to choose how it calculates fees,
we have said many times that it ‘abuses that “discretion
when it uses a mechanical or formulaic approach that results in an unreasonable award.”’” 21 The attorneys’ fee
award in this case does not satisfy Bluetooth.
Though circuit law does not necessarily require a cross
check, it probably should. We said in Bluetooth and in In
re Optical Disk Drive Products Antitrust Litigation that
we have “encouraged” a cross check. 22 But at least in this
case, the district court chose to follow the negative pregnant—that we do not require the cross check—rather

18

Id.

19

Vizcaino v. Microsoft Corp., 290 F.3d 1043, 1048 (9th Cir. 2002).

20

Id.

Bluetooth, 654 F.3d at 944 (quoting In re Mercury Interactive
Corp., 618 F.3d 988, 992 (9th Cir. 2010)).
21

In re Optical Disk Drive Prods. Antitrust Litig., 959 F.3d at 930;
Bluetooth, 654 F.3d at 944.
22

App. 18a
than accept the encouragement. This is understandable.
In the rare instance of a class action going to trial, the effect on the district court’s docket—combined with the difficulty of trying criminal cases within the 18 U.S.C.§ 3161
statutory deadline and the press of other civil litigation—
is a devastating year in the courtroom. But skipping this
step breaches the district court’s fiduciary duty to the
class. 23
The amicus brief in this case, by the Attorneys General
of seven states—Arizona, Arkansas, Idaho, Indiana, Louisiana, Missouri, and Texas—urges that instead of merely
encouraging a cross check, we ought generally to require
it. Now-Justice Gorsuch has recommended reversing the
trend toward percentage fees without cross checks, 24 and
scholarly literature has developed urging the necessity of
a lodestar cross check, including an article co-authored by
experienced district judge Vaughn Walker. 25 In this case,
the district court gave no reason—such as undue complexity or difficulty of calculation—for not using a lodestar
cross check.

23

In re Optical Disk Drive Prods. Antitrust Litig., 959 F.3d at 930.

Neil M. Gorsuch & Paul B. Matey, Settlements in Securities
Fraud Class Actions: Improving Investor Protection 22–23 (Wash.
Legal Found., Critical Legal Issues Working Paper No. 128, 2005).
24

See Vaughn R. Walker & Ben Horwich, The Ethical Imperative
of a Lodestar Cross-Check: Judicial Misgivings About “Reasonable
Percentage” Fees in Common Fund Cases, 18 GEO. J.L. ETHICS
1453, 1454 (2005); Brian Wolfman & Alan B. Morrison, Representing
the Unrepresented in Class Actions Seeking Monetary Relief, 71
N.Y.U. L. REV. 439, 503 (1996).
25

App. 19a
The only justification the district court gave for not
performing a lodestar cross check was that it was not required. A lodestar calculated using class counsel’s own
submitted numbers—2,158 hours multiplied by hourly
rates from $250 to $800 for attorneys and from $180 to
$200 for paralegals—amounted to $1,428,047.50. That
amount of money is not an insubstantial incentive to bring
claims that settle before discovery, yet the district court
awarded about ten times that much to class counsel.
In conclusion, the district court abused its discretion,
and we ought to reverse, as we did in Staton, Bluetooth,
and Roes. Even without a lodestar cross check, the attorneys’ fee award violated Ninth Circuit law because it overvalued the amount gained for the class. Once the economic
reality of the situation is considered, the percentage fee
greatly exceeded even our 25% benchmark. Because so little litigation occurred before the settlement, and the percentage fee was so high, it was an abuse of discretion not
to accept the “encourage[ment]” 26 in Bluetooth and In re
Optical Disk Drive Products Antitrust Litigation to perform a lodestar cross check, even though cross checks are
not absolutely required.
*

*

*

Bank of America and class counsel did much better
than the class in this case. Bank of America got much more
than settlement of the claim made against them in this

In re Optical Disk Drive Prods. Antitrust Litig., 959 F.3d at 930;
Bluetooth, 654 F.3d at 944.
26

App. 20a
case. It bought, for $37.5 million in cash, a release and covenant not to sue for usury relating to overdraft fees by anyone anywhere (who did not opt out within the allowed
time period) who had been charged an EOBC between
February 25, 2014, and December 30, 2017. The settlement, once approved, barred the entire class from suit,
even though the class was not certified when the agreement was made.
The reason why this had considerable value to the
Bank was that other class action plaintiffs’ attorneys were
barred from bringing class actions for the putatively usurious fees. Creating a class as part of the settlement,
where none was certified before, vastly expands the value
of a release. In this case, “each Class Member who has not
opted out . . . releases . . . [the bank] from any and all claims
. . . against [the bank] with respect to the assessment of
EOBCs as well as . . . any claim . . . which was or could
have been brought relating to EOBCs . . . and . . . any claim
that any other overdraft charge imposed by [the bank]
during the Class Period, including but not limited to
EOBCs and initial overdraft fees, constitutes usurious interest.” That broad release, extending to a nationwide
class that had not previously been certified in order to bar
such claims across the country, was indeed worth paying
plaintiff’s lawyers considerable money, but the case was
not worth much to the class, just to the defendant and
plaintiff’s counsel.

App. 21a
Appendix B
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
JOANNE FARRELL, Case No.: 3:16-cv-00492-Let al.
WVG
Plaintiffs,
ORDER GRANTING (1)
v.
MOTION [Doc. 104] FOR
FINAL APPROVAL OF
BANK OF AMERICA, CLASS
ACTION
SETTLEMENT AND (2)
N.A.,
Defendant.
MOTION [Doc. 80] FOR
ATTORNEYS’
FEES,
COSTS,
AND
CLASS
REPRESENTATIVE
SERVICE AWARDS
Pending before the Court are Class Counsel’s unopposed motions for final approval of class action settlement
and final approval of fees, costs, and service awards. The
Court has considered the motions on file, all timely objections, and oral argument presented by Class Counsel,
counsel for Defendant Bank of America (“BoA”), and
counsel for Objector Rachael Threatt at the final approval
hearing held on June 18, 2018. For the following reasons,
the Court hereby GRANTS both motions.
I.

PROCEDURAL BACKGROUND

This case is a putative class action focused on BoA’s
practice of levying $35 fees against deposit account holders for failing to rectify an overdrawn deposit account

App. 22a
within five days. To open a deposit account with BoA, a
customer had to first execute a Deposit Agreement [Doc.
8-3]. Under the terms of the Deposit Agreement BoA
charged a $35 fee anytime a deposit account holder wrote
a check against insufficient funds. When a deposit account
holder thus over drafted his or her account, BoA had discretion as to whether to honor the overdrawn check by advancing funds to the payee sufficient to cover the note.
However BoA levied the Initial Charge whether it advanced the funds or not. In the event BoA advanced the
funds, deposit account holders were obligated under the
Deposit Agreement to pay back BoA’s advance plus any
fees incurred. Failure to do so within five days triggered a
$35 Extended Overdrawn Balance Charge (“EOBC”).
Plaintiff wrote some checks against insufficient funds.
BoA honored the checks but charged her $35 fee for not
having sufficient funds. When Plaintiff failed to remedy
her negative account balance within five days, BoA levied
EOBCs. Because the EOBCs, as a percentage of her negative account balance, exceeded the interest rate permitted by the National Banking Act, Plaintiff filed this
putative class action against BoA, alleging violation of 12
U.S.C. §§ 85, 86 (the “NBA”).
A significant amount of pretrial activity followed. BoA
moved to dismiss Plaintiff’s Complaint, arguing that the
EOBCs were not “interest” and therefore cannot trigger
the NBA. (MTD [Doc. 8].) The Court disagreed, and
therefore denied BoA’s motion. (MTD Order [Doc. 20].)
BoA subsequently answered and then amended their answer, and Plaintiff twice moved to dismiss certain of BoA’s
affirmative defenses. (Docs. 25, 40, 41, 45.) In part because
every other court to consider the issue had held that
EOBCs do not constitute interest, this Court found that

App. 23a
there was substantial ground for a difference of opinion on
the issue. (April 11, 2017 Order [Doc. 61].) The Court
therefore granted BoA’s motion for certification of an interlocutory appeal of the denial of BoA’s motion to dismiss. (Id.)
BoA petitioned the Ninth Circuit for a permissive interlocutory appeal on April 21, 2017. (Doc. 62.) Plaintiff
answered. (9th Cir. Case No. 17-80072 [“Appeal”] Doc. 4.)
The Ninth Circuit Granted BoA’s Petition. (Doc. 63.)
While the permissive appeal was pending before the Ninth
Circuit, the parties participated in settlement negotiations, exchanged informal discovery, and attended mediation before the Honorable Layn Philips (Ret.), a highly
respected neutral. Through these efforts, the parties successfully reached a settlement agreement in early October
2017. After conducting confirmatory discovery and reducing terms to writing, the parties formally executed the
Settlement Agreement on October 31, 2017 and requested
preliminary approval. On December 21, 2017, the Court
granted preliminary approval. (Prelim. Appr. [Docs. 72,
75].) Plaintiffs now move unopposed for certification of a
settlement class, final approval of the settlement, final approval of attorneys’ fees and costs award, and final approval of service awards for named plaintiffs.
II.

THE SETTLEMENT

In exchange for the release of class members’ claims,
the settlement agreement (“Agreement” [Doc. 104-2])
provides four forms of consideration:
1. BoA ceases charging EOBCs for five years beginning December 31, 2017. (Agreement § 2.2(a).) BoA’s obligation will terminate during this timeframe only if the

App. 24a
United States Supreme Court expressly holds that
EOBCs or their equivalent do not constitute interest under the NBA. (Id.) BoA testifies that this cessation will depress their revenue (and benefit BoA deposit account
holders) by approximately $20,000,000 per month, or $1.2
billion total over the five year period. (Bhamani Decl.
[Doc. 104-4].)
2. BoA provides cash payment (“Cash Portion”) of
$37.5 million to class members who (1) were charged an
EOBC and (2) did not have their EOBC refunded or
charged off. (Settlement Agreement § 2.2(b)(3).) Attorneys’ fees ($14.5 million), costs ($53,119.92), named plaintiff service awards ($20,000), and settlement
administrator hourly charges (approximately $62,242.00
[Doc. 122-1 ¶33]) will come off the top. (Id. § 1.4, 1.24,
2.2(b)(3).) The residue (approximately $22,864,638) to issue pro rata based upon how many EOBC’s each qualifying class member paid as a percentage of all EOBC’s paid
by the class during the class period. (Id. § 2.2(b)(3).) Class
members who do not opt out will receive their payment
automatically.
3. BoA provides debt reduction (“Debt Reduction”) in
the amount of at least $29.1 million. Debt Reduction will
issue to class members whose BoA accounts closed with
an outstanding balance stemming from one or more
EOBC’s levied during the class period. Each eligible class
member will receive up to $35 in debt reduction. To the
extent BoA reported any of this debt to the credit bureaus,
BoA will update the Bureau’s as to the effect of the debt
reduction. This debt reduction will issue automatically to
all qualifying members who do not opt out. It will apply
only to debt which BoA has a legal right to collect. It will

App. 25a
not apply to unenforceable debt, such as debt discharged
in bankruptcy. (Trial Tr.)
4. BoA is paying all settlement administration costs
other than the administrator’s hourly service charges.
These costs are currently estimated at $2.9 million. (Doc.
122-1 ¶33.)
If there is any residual Cash Portion settlement funds
after the first distribution, the residue will go to the class
by way of a secondary distribution, if economically feasible. Otherwise, the residue will go to the Center for Responsible Learning as cy pres beneficiary. None of the
settlement funds will revert to BoA.
Email and / or physical mail notices went out to
7,078,199 class members. (Doc. 122-1 ¶ 21.) Only one hundred class members opted out. (Id. ¶ 26.) Eleven class
members have filed timely objections. (Docs. 82, 84–86, 88,
90–93, 101.) Class member Rachael Threatt (“Threatt”)
was the only objecting class member to appear at the final
approval hearing (“Hearing”), entering an appearance
through counsel Theodore Frank.
III.

SETTLEMENT CLASS CERTIFICATION

Plaintiffs seek settlement only class certification under
Fed. R. Civ. P. 23(a) and (b)(3) of the same settlement
class the Court preliminarily certified: “All holders of
[BoA] consumer checking accounts who, during the period
between February 25, 2014 and December 30, 2017, were
assessed at least one [EOBC] that was not refunded.”
(Doc. 72 § 2.)

App. 26a
“The class action is ‘an exception to the usual rule that
litigation is conducted by and on behalf of the individual
named parties only.’” Wal-Mart Stores, Inc. v. Dukes, 564
U.S. 338, 348 (2011). “A party seeking class certification
must satisfy the requirements of Federal Rule of Civil
Procedure 23(a) and the requirements of at least one of
the categories under Rule 23(b).” Wang v. Chinese Daily
News, Inc., 709 F.3d 829, 832 (9th Cir. 2013).
A. Rule 23(a)
Rule 23(a) ensures that the named plaintiffs are appropriate representatives of the class whose claims they wish
to litigate. “The Rule's four requirements – numerosity,
commonality, typicality, and adequate representation – effectively limit the class claims to those fairly encompassed
by the named plaintiff's claims.” Dukes, 564 U.S. at 349
(internal quotation marks and citations omitted).
1. Numerosity
The numerosity element is met if “the class is so numerous that joinder of all members is impracticable.” Fed.
R. Civ. P. 23(a)(1). Here, the class numbers around seven
million. The numerosity element is clearly satisfied.
2. Commonality
Under Rule 23(a)(2), Plaintiffs must demonstrate that
there are “questions of law or fact common to the class.”
Fed. R. Civ. P. 23(a)(2). The Supreme Court has held that
plaintiffs must demonstrate “the capacity of a classwide
proceeding to generate common answers” to common
questions of law or fact that are “apt to drive the resolu-

App. 27a
tion of the litigation.” Dukes, 564 U.S. at 350 (internal citations and quotations marks omitted). However, “[a]ll
questions of fact and law need not be common to satisfy
this rule.” Hanlon v. Chrysler Corp., 150 F.3d 1011, 1019
(9th Cir. 1998). “The common contention ... must be of such
a nature that ... its truth or falsity will resolve an issue that
is central to the validity of each one of the claims in one
stroke.” Id. “The existence of shared legal issues with divergent factual predicates is sufficient, as is a common
core of salient facts coupled with disparate legal remedies
within the class.” Id. A single common question is sufficient to satisfy the commonality element. Dukes, 131 S. Ct.
at 2556. Here, the common, dispositive issue of whether
EOBCs constitute interest for purposes of the NBA satisfies the commonality element.
3. Typicality
The typicality requirement of Rule 23(a)(3) focuses on
the relationship of facts and issues between the class and
its representatives.
The commonality and typicality requirements of
Rule 23(a) tend to merge. Both serve as guideposts
for determining whether under the particular circumstances maintenance of a class action is economical and whether the named plaintiff's claim and the
class claims are so interrelated that the interests of
the class members will be fairly and adequately protected in their absence.”
Dukes, 131 S. Ct. at 2551 n.5 (internal quotation marks and
citation omitted). “[R]epresentative claims are ‘typical’ if
they are reasonably co-extensive with those of absent

App. 28a
class members; they need not be substantially identical.”
Hanlon v. Chrysler Corp., 976 F.2d 497, 508 (9th Cir. 1992)
(internal citations and quotation marks omitted). “The test
of typicality is whether other members have the same or
similar injury, whether the action is based on conduct
which is not unique to the named plaintiffs, and whether
other class members have been injured by the same
course of conduct.” Hanon v. Dataproducts Corp., 976
F.2d 497, 508 (9th Cir. 1992) (internal citations and quotation marks omitted).
Here, the named plaintiffs are typical of the class they
seek to represent. They suffered the same injury from the
same course of conduct as did unnamed members. To wit,
like the unnamed members, BoA charged them with
EOBCs. Named plaintiffs therefore meet the criteria of
Rule 23(a)(3). 1
4. Adequacy
To serve as class representative, one must “fairly and
adequately protect the interests of the class.” Fed. R. Civ.
P. 23(a)(4). This requirement is aimed at protecting the
due process rights of absent members who will be bound
by a class action judgment. Hanlon, 150 F.3d at 120; Richards v. Jefferson Cnty., Ala., 517 U.S. 793, 801 (1996).
“Resolution of two questions determines legal adequacy:

Objector Sanchez seeks to raise typicality arguments for the first
time in her response to the Court’s Order to Show Cause, which did
not request briefing on the issue of typicality. She did not raise typicality concerns in a timely objection. In any event, the Court, for the
reasons stated, is satisfied that the typicality element is met.
1

App. 29a
(1) do the named plaintiffs and their counsel have any conflicts of interest with other class members and (2) will the
named plaintiffs and their counsel prosecute the action
vigorously on behalf of the class?” Hanlon, 150 F.3d at 120
(citation omitted).
Named plaintiffs and Class Counsel have demonstrated their ability to vigorously prosecute this action on
behalf of the class. 2
Thus, the only question as to adequacy is whether
there exists a conflict of interest between named plaintiffs
and the class as a whole that would render named plaintiffs inadequate representatives. Objector Estafania
Sanchez (“Sanchez”) complains that the interests of the
Debt Portion recipients are “entirely different” and in
conflict with the interests of the Cash Portion recipients.
(Sanchez Objection [Doc. 88] ¶ 3.) In support of this argument, Sanchez cites to Amchem Products Inc. v. Windsor,
52 U.S. 591 (1997). In Amchem, an asbestos exposure case,
the Supreme Court held that there was an insufficient
alignment of the interests of plaintiffs who presently suffered exposure related injury and plaintiffs who had no
present symptoms but could potentially experience them
at a later time. Id. at 626. To wit, the former had an interest in maximizing immediate payment while the latter had
a conflicting interest in maximizing a reserve fund for future claims with built in inflation adjustments. Id.

The Court further elaborates on this point below under the portion of this order approving Class Counsel’s fee award.
2

App. 30a
Because it seemed feasible that the Cash Portion recipients may have an interest in maximizing the cash value
of the settlement while the Debt Portion recipients may
have a possibly conflicting interest in maximizing the debt
forgiveness, the Court ordered further briefing on this issue. (OSC [Doc. 125].) In their responsive briefing, BoA
and Class Counsel cite to In re Volkswagen “Clean Diesel”
Mktg., Sales Practices, and Products Liability Litig., 895
F.3d 597 (9th Cir. 2018), a decision that issued eleven days
after the OSC.
In Volkswagen, the settlement at issue stemmed from
Volkswagen’s decision to install “defeat devices” in some
of its vehicles. Volkswagen, 895 F.3d at 603. These defeat
devices triggered during smog inspections and reduced
the vehicles’ emissions to a legally acceptable level. Id.
The settlement involved making payments to class members depending in part upon to which of two subgroups a
class member belongs. One subgroup consisted of class
members who had not sold their vehicles. Members of this
subgroup received the option to either have their vehicles
fixed or to sell them back at the pre-defeat device price.
Id. at 604. Members of this subgroup also received a cash
restitution payment of at last $5,100 if they purchased
their vehicle before September 18, 2015, the date the defect became publically known (“Eligible Owners”), and
half that amount in cash restitution if they purchased their
vehicle after that date (“Eligible New Owners”). Id. Another group consisted of those who had sold their vehicles
after the defect became publically known (“Eligible
Sellers”). Members of this group received only a restitution payment, which was equal to one half the restitution
afforded to Eligible Owners and the same as that afforded
to Eligible New Owners.

App. 31a
An objector challenged class certification on the basis
of adequacy, arguing that there was a conflict of interest
between owners and sellers and inadequate representation of the latter. Volkswagen, 895 F.3d at 606–7. As evidence of inadequate representation, the objector
complained that it was unfair that Eligible Sellers received the same amount as Eligible new buyers, given that
the latter made their purchase after receiving construction knowledge of the defect. Id. In finding that the district court did not abuse its discretion in certifying the
settlement class, the Ninth Circuit reasoned that no conflict of interest existed sufficient to render the representation inadequate because (1) the Eligible Sellers had
much weaker claims than the Owners and thus benefited
from the bargaining power of the latter and (2) the settlement fairly compensated sellers for their actual economic
losses. Id. at 608–9.
As with the members of the Eligible Sellers group in
Volkswagen, members of the Debt Portion group here are
fairly compensated for their actual economic losses stemming from unpaid EOBCs. Indeed, Debt Portion recipients will receive complete EOBC debt forgiveness. (OSC
Response [Doc. 128] 8:5–6 n.3; BoA Decl. [Doc. 128–2] ¶3.)
It is true that the Cash Portion recipients, by contrast, will
recover less than one hundred percent of their economic
loss. But this comparably less favorable treatment of Cash
Portion recipients is not grounds for finding an improper
conflict of interest because the named plaintiffs include
only Cash Portion recipients and do not include any Debt
Portion recipients. (OSC Response 7:15–25.) To the contrary, the fact that the least represented group appears to
have received the more favorable treatment would seem
to suggest a lack of self-dealing on the part of the named

App. 32a
representatives. Accordingly, the Court finds that the representation in this case satisfies Fed. R. Civ. P. 23(a)(4).
B. Rule 23(b)(3)
Plaintiff seeks class certification under Rule 23(b)(3).
Where, as here, the requirements of Rule 23(a) are met,
class certification is proper under Rule 23(b)(3) if “the
court finds that the questions of law or fact common to
class members predominate over any questions affecting
only individual members, and that a class action is superior to other available methods for fairly and efficiently
adjudicating the controversy.” Fed. R. Civ. P. 23(b)(3);
Wang, 709 F.3d at 832.
Here, there is no dispute as to the fact that the legal
question of whether EOBCs constitute interest predominates and a class action is the superior method by which
to resolve this common question. Accordingly, the Court
certifies for settlement purposes only the class as defined
in paragraph 2.1 of the Settlement Agreement.
C. Notice
A prerequisite to final approval is a finding of adequate
notice to the class. Fed. R. Civ. P. 23(e). In the preliminary
approval order, the Court approved the form, content, and
method of providing notice proposed by the Parties. The
Settlement Class Notices were thereafter distributed to
members of the Settlement Class pursuant to the terms of
the Preliminary Approval Order. (See Docs. 104–3; 122–
1.) Objector Estafania Sanchez complains that notice was
inadequate because it failed to inform class members as to

App. 33a
how much damage the class as a whole suffered and how
many class members will share in the settlement.
Both contentions lack merit. Through banking records
and notices, each class member should be in a position to
know, or at least learn, how much damage they personally
suffered from EOBCs. Furthermore, the notice to the
class informed members of the amount of the settlement
as well as an estimate of the number of people in the class.
(See Doc. 73–2 pp. 3–4.) Armed with this information, class
members were in a position to roughly calculate the average payout and compare that to their individual damages.
The Court therefore finds that the Class Notices given to
Settlement Class members adequately informed Settlement Class members of all material elements of the proposed Settlement and constituted valid, due, and sufficient
notice to Settlement Class members. The Court further
finds that the Notice Program satisfies due process and
has been fully implemented.
IV.

SETTLEMENT FAIRNESS

In determining whether a class action settlement is
fair, adequate, and reasonable, the Court considers what
are known as the Hanlon factors, which are:
(1) the strength of plaintiffs’ case; (2) the risk, expense, complexity, and likely duration of further litigation; (3) the risk of maintaining class action
status throughout the trial; (4) the amount offered
in settlement; (5) the extent of discovery completed,
and the stage of the proceedings; (6) the experience
and views of counsel; (7) the presence of a governmental participant; and (8) the reaction of the class
members to the proposed settlement.

App. 34a
Gutierrez-Rodriguez v. R.M. Galicia, Inc., No. 16-cv00182 H-BLM (S.D. Cal. 2017) (citing Hanlon v. Chrysler
Corp., 150 F.3d 1011, 1026 (9th Cir. 1998)). When a court
exercises its discretion to approve a settlement, the Ninth
Circuit has instructed:
[T]he court’s intrusion upon what is otherwise a private consensual agreement negotiated between the
parties to a lawsuit must be limited to the extent necessary to reach a reasoned judgment that the agreement is not the product of fraud or overreaching by,
or collusion between, the negotiating parties, and
that the settlement, taken as a whole, is fair, reasonable and adequate to all concerned.
Officers for Justice v. Civil Serv. Com., 688 F.2d 615, 625
(9th Cir. 1982). “The proposed settlement is not to be
judged against a hypothetical or speculative measure of
what might have been achieved by the negotiators.” Id.
(emphasis in original).
On balance, the Court finds that the Hanlon factors
strongly support settlement approval. As noted above,
every other court to consider the question of whether
EOBCs constitute interest for purposes of the usury laws
has answered it in the negative. Were litigation in this case
to continue, Plaintiffs would face a risk of losing at the appellate level on this legal question. Furthermore, the distance between the present posture of this case and any
recovery other than by settlement is substantial. To succeed, Plaintiffs would need to defeat BoA’s permissive interlocutory appeal of the EOBC/interest issue; engage in
formal discovery; win a contested class certification mo-

App. 35a
tion; survive summary judgment; win at trial; and successfully defend on likely at least one level of post-trial appeal.
Considering Bank of America is a highly sophisticated and
well represented defendant, Plaintiffs would almost certainly encounter substantial difficulty and expense in fully
litigating this case.
The amount offered in settlement also supports approval. Most importantly, the injunctive relief, estimated
at about $1.2 billion, is substantial. Further, the $37.5 million in cash and $29.1 million in debt relief alone amounts
to about nine percent of the maximum amount the Class
could recover through trial. (Joint Decl. [Doc. 104–3] ¶ 30.)
Compared to the risk and expense of continued litigation,
a present recovery of nine percent is meaningful. It is thus
not surprising that only one hundred members of the more
than seven million person class elected to opt out.
Some objections complain that the $29.1 million in debt
relief is illusory because (1) forgiving the debt may cost
BoA very little considering it likely did not expect to recover most if not all of this debt and (2) Debt Portion recipients will benefit little from forgiveness of debt that
they did not intend to pay. While it may be true that it will
cost BoA very little to provide the Debt Portion relief, it
does not follow that the relief is meaningless to Debt Portion recipients. This debt, at present, is legally enforceable. BoA could initiate proceedings to collect.
Alternatively, BoA could sell the debt at a discount to another entity that might be more willing to undertake collection efforts. The Debt Portion relief immunizes
recipients from worrying about or suffering through any
efforts to collect on this debt. The Debt Portion relief will
also benefit recipients in the form of the improved credit

App. 36a
scores some class members will realize once BoA reports
the debt relief to the credit bureaus.
Finally, the quality and tenacity of Class Counsel’s
work on this case (discussed in more detail below) and the
presence of a highly respected neutral in negotiations further satisfies the Court that this settlement was reached
through arms’ length negotiations and not collusion. For
these reasons, the Court approves the Agreement as fair,
reasonable, adequate, and in the best interest of the Settlement Class members.
V.

ATTORNEYS’ FEES

In their Motion for Fees and Costs, Class Counsel
sought $16.65 million in fees, 25% of the 66.6 million dollar
aggregated value of the cash and debt reduction payments. Class Counsel has since reduced their fee prayer
to $14.5 million, which amounts to 21.1 % of the proposed
cash and debt reduction payments. (Doc. 106.) The bulk of
settlement objections focus on this prayer, contending it is
unreasonable.
In common fund cases such as this, the Court has discretion to employ either the percentage of the fund
method or the lodestar method to calculate a proper fee
award. In re Bluetooth Headset Prods. Liab. Lit., 654 F.3d
935, 942 (9th Cir. 2011). In determining fees, “[r]easonableness is the goal, and mechanical or formulaic application of either method, where it yields an unreasonable
result, can be an abuse of discretion.” Fischel v. Equitable
Life Assur. Soc’y of U.S., 307 F.3d 997, 1007 (9th Cir.
2002).

App. 37a
Under the percentage of the fund method, the Court
awards some specific percentage of the fund as fees. The
Ninth Circuit benchmark rate is twenty five percent.
Bluetooth, 654 F.3d at 942. Here, Class Counsel purports
to request only a 21.1% take of the common fund, which
includes the Debt ($29.1 million) and Cash ($37.5 million)
Portion relief (the “denominator”). Objectors contend that
Class Counsel’s prayer for $14.5 million is actually more
than 21.1% because the Debt Portion relief is illusory and
thus should not be included in the denominator. As explained above, the Court does not believe the Debt Portion
relief is illusory. Furthermore, assuming arguendo that it
was illusory, the Court finds that the staggering $1.2 billion dollars in injunctive relief is worth substantially more
than $29.1 million to the denominator. The Court therefore calculates Class Counsel’s prayer at 21.1% of the common fund.
Meeting the benchmark rate does not end the analysis
because “[s]election of the benchmark or any other rate
must be supported by findings that take into account all of
the circumstances of the case.” Vizcaino v. Microsoft
Corp., 290 F.3d 1043, 1048 (9th Cir. 2002). Factors courts
commonly consider in determining a reasonable percentage include the result obtained; the reaction of the class;
the effort, experience, and skill of counsel; complexity of
issues; risks of nonpayment assumed by class counsel; and
comparison with counsel’s lodestar. Ruiz v. Xpo Last
Mile, Inc., 2017 WL 6513962 * 7 (S.D. Cal. 2017) (Sammartino, J.) (Internal citations and quotations omitted.)
As explained above under the settlement fairness analysis, the result obtained here by Class Counsel is remarkable. The value of the Cash Portion and Debt Portion relief
alone strongly supports the requested fee. Consideration

App. 38a
of the $1.2 billion in injunctive relief to class members and
to BoA deposit account holders generally makes the inquiry much easier. Indeed, forcing a bank of BoAs stature
to cease a lucrative banking practice like charging EOBCs
is a meaningful accomplishment. Which would explain why
Class Members seem to have reacted very favorably–only
one hundred members out of the more than seven million
member class opted out. This accomplishment is made all
the more remarkable by the fact that Class Counsel faced
a substantial risk of non-payment in confronting the adverse legal landscape on the issue of whether EOBCs constitute interest.
Class Counsel achieved this result through tenacity
and great skill. In all of their written submissions and in
their presentation at the Final Approval Hearing, Class
Counsel’s arguments were laudably clear and precise, no
small feat given the complexity of the legal questions at
issue here. It is clear that substantial preparation went
into all of Class Counsel’s work on this case. Though Class
Counsel achieved the Settlement before commencement
of formal discovery, a cursory glance at the docket demonstrates that this was a hard fought battle. Class Counsel
had to oppose a motion to dismiss, move twice to strike
affirmative defenses; oppose a petition for interlocutory
appeal; answer an appeal; engage in settlement talks and
informal discovery; prepare for and attend mediation;
move for preliminary approval; effectuate notice; respond
to objections; prepare for and attend the Final Approval
Hearing; and respond to the Court’s Order to Show Cause.
Objectors contend that the Court should nevertheless
apply the lodestar cross check. Here, the Court has discretion to not apply the lodestar cross check. Bluetooth,
654 F.3d at 942 (stating “[w]here a settlement produces a

App. 39a
common fund for the benefit of the entire class, courts
have discretion to employ either the lodestar method or a
percentage-of-recovery method); In re Google Referrer
Header Privacy Litig., 869 F.3d 737, 748 (9th Cir. 2017)
(stating “[a]lthough not required to do so, the district
court took an extra step, cross checking this result by using the lodestar method.”). The Court therefore finds it
proper to exercise this discretion and not apply the lodestar cross check. 3 Because the requested 21.1% is significantly below the benchmark rate of 25%, and because of
how high Class Counsel scores on the factors analyzed
above, the Court finds that the requested fee is reasonable. The Court therefore GRANTS Class Counsel’s motion for fees and awards $14.5 million.
VI.

COSTS AND SERVICE AWARDS

Class Counsel seeks $53,119.92 in costs and $20,000 in
service awards to the named plaintiffs. None of the objectors contest these requests. The Court finds these
amounts reasonable to compensate Class Counsel for the
costs expended in litigating this case and the named plaintiffs for their service to the settlement class and in this action. Class Counsel’s prayer for costs and services awards
is GRANTED.
VII.

CONCLUSION AND ORDER

For the foregoing reasons, the Court OVERRULES
all objections and GRANTS Class Counsel’s unopposed

The Court therefore DENIES AS MOOT Class Counsel’s Motion to Seal [Doc. 110].
3

App. 40a
motions for final approval of class action settlement and
final approval of fees, costs, and service awards. The Court
further orders as follows:
• The Amended Complaint (Doc. 78) is dismissed with
prejudice.
• The one hundred class members who opted out are
not bound by this settlement agreement. (Doc. 122-1 Attachment 5.)
• Provided it is economically feasible, should any funds
remain after the initial distribution of the class member
awards, the parties shall do a second distribution to Settlement Class members who received their class member
awards, provided it was by direct deposit or by negotiated
check. (Agreement ¶ 3.5.) Should residual funds remain
following a second distribution, or in the event a second
distribution is not economically feasible, the Parties shall
distribute the remaining funds, if any, to cy pres recipient,
Consumers for Responsible Lending (www.responsiblelending.org), a non-profit organization that fights
against abusive financial practices.
• Objector Collins motion [Doc. 119] for leave to file an
amended Reply is DENIED. To properly assess the fairness of the settlement and the requested fees, it is not necessary for the Court to determine whether Objector
Collins’ attorney verbally indicated to Class Counsel that
his client was satisfied by the $2 million reduction in Class
Counsel’s prayer for fees. The Court assumes Collins did
not retract her objection, and overrules it.
• The Court retains jurisdiction over implementation
and enforcement of the Agreement.

App. 41a
IT IS SO ORDERED.
Dated: August 31, 2018

/s/ M. James Lorenz
Hon. M. James Lorenz
United States District Court Judge

App. 42a
Appendix C
RONALD DINKINS; TIA LITTLE;
LARICE ADDAMO; PATRICK
MICHAEL FARRELL; RYAN
THOMAS FARRELL; TIMOTHY
GAELAN FARRELL; BROOKE
ANN FARRELL,
Plaintiffs,
V.

Civil Action No.
3:16-CV-00492L-WVG
JUDGMENT
IN A CIVIL
CASE

BANK OF AMERICA, N.A.
Defendant.
IT IS HEREBY ORDERED AND ADJUDGED:
That judgment is entered in accordance with all provisions
set forth in the Conclusion and Order section of the Order
Granting (1) Motion for Final Approval of Class Action
Settlement and (2) Motion for Attorneys’ Fees, Costs, and
Class Representative Service Awards entered as ECF No.
133.
Date: 9/19/18
CLERK OF COURT
JOHN MORRILL, Clerk of Court
By: s/ L. Fincher
L. Fincher, Deputy

App. 43a
Appendix D
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
JOANNE FARRELL; et al.,
Plaintiffs-Appellees,
ESTAFANIA
SANCHEZ

No. 18-56272
OSORIO D.C. No.

Objector-Appellant,

3:16-CV-00492-LWVG

V.

ORDER

BANK
OF
AMERICA
CORPORATION, N.A.,
Defendant-Appellee.
JOANNE FARRELL; RONALD
ANTHONY DINKINS; LARICE
No. 18-56273
ADDAMO, On behalf of themselves and all others similarly situ- D.C. No.
ated,
3:16-CV-00492-LWVG
Plaintiffs-Appellees,
AMY COLLINS
Objector-Appellant,
V.

BANK
OF
AMERICA
CORPORATION, N.A.,
Defendant-Appellee.

App. 44a

JOANNE FARRELL; RONALD
ANTHONY DINKINS; LARICE No. 18-56371
ADDAMO, On behalf of themselves
D.C. No.
and all others similarly situated,
3:16-CV-00492Plaintiffs-Appellees,
L-WVG
v.
RACHEL THREATT,
Objector-Appellant,
V.

BANK OF AMERICA, N.A.,
Defendant-Appellee.
Before: KLEINFELD and CALLAHAN, Circuit Judges,
and CHRISTENSEN, * District Judge.
Judges Callahan and Christensen have voted to deny
the petitions for panel rehearing, which Judge Kleinfeld
would grant. Judge Callahan has also voted to deny the
petitions for rehearing en banc, and Judge Christensen
has so recommended. Judge Kleinfeld has recommended
granting the petitions for hearing en banc. The full court
has been advised of the petitions and no judge has requested a vote on whether to rehear the matter en banc.
Fed. R. App. P. 35. Accordingly, the petitions for panel rehearing and rehearing en banc are DENIED.

* The Honorable Dana L. Christensen, United States District
Judge for the District of Montana, sitting by designation.

App. 45a
Appendix E
Farrell v. Bank of America, N.A.
United States Court of Appeals for the Ninth Circuit
Appeal No. 17-55847
United States District Court for the Southern District of
California
Case No. 3:16-CV-00492-L-WVG
Settlement and Release Agreement

App. 46a
This Settlement and Release Agreement (“Agreement”) dated as of October 30, 2017 is entered into by
Plaintiffs Joanne Farrell, Ronald Dinkins, Larice Addamo, and Tia Little (“Plaintiffs”) on behalf of the Settlement Class defined herein, and Bank of America, N.A.
(“BANA”). Plaintiffs and BANA are each individually a
“Party” and are collectively the “Parties.” The Parties
hereby agree to the following terms in full settlement of
the action titled Farrell v. Bank of America, N.A., No.
3:16-CV-00492-L-WVG (S.D. Cal.) (“Action”), subject to
Final Approval, as defined below, by the United States
District Court for the Southern District of California
(“Court”).
I

RECITALS

WHEREAS, on February 25, 2016, Plaintiff Farrell
filed the Action and alleges in the Complaint that the
EOBC, as defined below, is a form of usurious “interest”
under Sections 85 and 86 of the National Bank Act
(“NBA”);
WHEREAS, on April 29, 2016, BANA moved to dismiss the Action on the grounds that overdraft fees, including the EOBC, are excluded as a matter of law from the
definition of “interest” under the NBA, which motion was
denied by the Court on December 19, 2016;
WHEREAS, on January 6, 2017, BANA filed a motion
for certification of the Court’s order for interlocutory appeal and to stay the case pending appeal;
WHEREAS, on March 13, 2017, Plaintiff Farrell filed
an unopposed motion to amend her Complaint to add

App. 47a
Ronald Dinkins, Larice Addamo, and Tia Little as three
additional named plaintiffs;
WHEREAS, on April 11, 2017, the Court granted
BANA’s motion for certification of the dismissal order for
interlocutory appeal and stayed the case pending resolution by the United States Court of Appeals for the Ninth
Circuit (“Ninth Circuit”);
WHEREAS, on April 21, 2017, BANA filed a petition
for permission to appeal the Court’s dismissal order with
the Ninth Circuit;
WHEREAS, on June 14, 2017, the Ninth Circuit
granted BANA’s petition for permission to appeal, and the
appeal is pending as of the date of this Agreement;
WHEREAS, BANA has denied, and continues to
deny, each and every claim and allegation of wrongdoing
asserted in the Action, and BANA believes it would ultimately be successful in its defense of all claims asserted in
the Action;
WHEREAS, BANA has nevertheless concluded that
because further litigation involves risks and could be protracted and expensive, settlement of the Action is advisable;
WHEREAS, Plaintiffs, individually and on behalf of
the Settlement Class as defined below, believe that the
claims asserted in the Action have merit and that there is
evidence to support their claims;

App. 48a
WHEREAS, Plaintiffs nevertheless recognize and
acknowledge the expense and length of continued litigation and legal proceedings necessary to prosecute the Action through trial and through any appeals; and
WHEREAS, Plaintiffs have also, in consultation with
their counsel, assessed the legal risks faced in the Action,
and on the basis of that assessment believe that the Settlement set forth in this Agreement and as defined below
provides substantial benefits to Plaintiffs and the Settlement Class, is fair, reasonable, and adequate, and is in the
best interests of Plaintiffs and the Settlement Class.
NOW THEREFORE, the Parties agree that the Action shall be fully and finally compromised, settled, released, and dismissed with prejudice, subject to the terms
and conditions of this Agreement and subject to Final Approval as set forth herein.
II TERMS OF THE SETTLEMENT
Section 1.

Definitions

In addition to the terms defined elsewhere in this
Agreement, the following capitalized terms used in this
Agreement shall have the meanings specified below:
1.1
“Administrative Costs” means all out-ofpocket costs and third-party expenses of the Administrator that are associated with providing notice of the Settlement to the Settlement Class, administering and
distributing the Settlement Amount to Class Members, or
otherwise administering or carrying out the terms of the

App. 49a
Settlement, including but not limited to postage and telecommunications costs. Administrative Costs shall not include the Administrator’s Hourly Charges.
1.2 “Administrator” means Epiq Systems.
1.3 “Administrator’s Hourly Charges” means any fees
paid to the Administrator on an hourly basis for its services in administering the Settlement, excluding Administrative Costs, printing, postage, National Change of
Address Database charges, and any other costs not customarily billed by the Administrator on an hourly basis.
1.4 “Adjustments” means, collectively, the Class Representatives Service Awards, the Fee & Expense Award,
and the amount of the Administrator’s Hourly Charges.
1.5 “BANA Releasees” has the meaning ascribed to it
in Section 2.3(a).
1.6 “Cash Settlement Amount” has the meaning ascribed to in Section 2.2(b)(1).
1.7 “Class Counsel” means Tycko & Zavareei LLP,
Kopelowitz Ostrow Ferguson Weiselberg Gilbert, Kelley
Uustal, PLC, and Creed & Gowdy, P.A.
1.8 “Class Member” means a person who falls within
the definition of the Settlement Class.
1.9 “Class Member Award” means an award to a Class
Member of funds from the Net Cash Settlement Amount.
1.10 “Class Notices” means Exhibits B, C, and D attached hereto.

App. 50a
1.11 “Class Period” means the period between February 25, 2014 and December 30, 2017.
1.12 “Class Representative Service Award” has the
meaning ascribed to it in Section 3.1.
1.13 “Complaint” means the complaint filed in the Action on February 25, 2016.
1.14 “Direct Deposit Payment” has the meaning ascribed to it in Section 2.6(b).
1.15 “Debt Reduction Payments” means the debt reduction payments described in Section 2.2(b)(4).
1.16 “Debt Reduction Amount” has the meaning ascribed to it in Section 2.2(b)(1).
1.17 “Effective Date” shall mean when the last of the
following has occurred: (1) the day following the expiration of the deadline for appealing Final Approval if no
timely appeal is filed, or (2) if an appeal of Final Approval
is taken, the date upon which all appeals (including any
requests for rehearing or other appellate review), as well
as all further appeals therefrom (including all petitions for
certiorari) have been finally resolved without material
change to the Final Approval Order, as determined by
BANA, and the deadline for taking any further appeals
has expired such that no future appeal is possible; or (3)
such date as the Parties otherwise agree in writing.
1.18 “EOBC” or, plural, “EOBCs,” means the Extended Overdrawn Balance Charge that BANA applies to

App. 51a
a consumer checking account when that account is overdrawn by the accountholder and the account remains overdrawn for five (5) or more consecutive business days, as
described in the Personal Schedule of Fees, a specimen
copy of which is attached as Exhibit F hereto.
1.19 “Fee & Expense Award” has the meaning ascribed to it in Section 3.2.
1.20 “Final Approval” means entry of the Final Approval Order.
1.21 “Final Approval Hearing” means the date the
Court holds a hearing on Plaintiffs’ motion seeking Final
Approval.
1.22 “Final Approval Order” means the document attached as Exhibit E hereto.
1.23 “National Change of Address Database” means
the change of address database maintained by the United
States Postal Service
1.24 “Net Cash Settlement Amount” means the Cash
Settlement Amount, less the Adjustments.
1.25 “Objection Deadline” means one-hundred twenty
(120) calendar days after Preliminary Approval (or other
date as ordered by the Court).
1.26 “Opt-Out Deadline” means one-hundred twenty
(120) calendar days after Preliminary Approval (or other
date as ordered by the Court).

App. 52a
1.27 “Preliminary Approval” means entry of the Preliminary Approval Order.
1.28 “Preliminary Approval Order” means the document attached as Exhibit A hereto.
1.29 “Released BANA Claims” has the meaning ascribed to it in Section 2.3(a).
1.30 “Settlement” means the settlement of the Action
by the Parties and the terms thereof contemplated by this
Agreement.
1.31 “Settlement Amount” means Sixty-Six Million
Six-Hundred Thousand Dollars ($66,600,000.00).
1.32 “Settlement Class” has the meaning ascribed to it
in Section 2.1.
1.33 “Settlement Fund Account” means the account
into which BANA will deposit the Cash Settlement
Amount.
1.34 “Settlement Value” means, collectively, the Cash
Settlement Amount, the Debt Reduction Amount, and the
Administrative Costs.
1.35 “Taxes” shall have the meaning ascribed to it in
Section 3.4.
Section 2. The Settlement
2.1 Conditional Certification of the Settlement Class

App. 53a
(a) Solely for purposes of this Settlement, the Parties agree to certification of the following Settlement Class
under Fed. R. Civ. P. 23(b)(2) and (b)(3):
All holders of BANA consumer checking accounts
who, during the Class Period, were assessed at least one
EOBC that was not refunded.
(b) In the event that the Settlement does not receive
Final Approval, or in the event the Effective Date does not
occur, the Parties shall not be bound by this definition of
the Settlement Class, shall not be permitted to use it as
evidence or otherwise in support of any argument or position in any motion, brief, hearing, appeal, or otherwise,
and BANA shall retain its right to object to the maintenance of this Action as a class action and the suitability of
the Plaintiffs to serve as class representatives.
2.2 Settlement Benefits
(a) Change to Business Practices
(1) Beginning on or before December 31, 2017,
BANA agrees not to implement or assess EOBCs, or any
equivalent fee, in connection with BANA consumer checking accounts, for a period of five (5) years, or until December 31, 2022.
(2) Nothing in Section 2.2(a) shall require BANA to
violate any law or regulation. BANA’s obligation to cease
assessing EOBCs as provided in this section shall be lifted
in the event a United States Supreme Court decision expressly holds that EOBCs or equivalent fees are not interest under the NBA; BANA’s obligation will be lifted no
sooner than 6 months after any such decision.

App. 54a
(b) Monetary Relief
(1) Settlement Amount. BANA will provide the $66.6
million Settlement Amount as follows:
Thirty-Seven Million Five-Hundred Thousand Dollars ($37,500,000.00) of the Settlement Amount will be
paid in cash (the “Cash Settlement Amount”),
and
Twenty-Nine Million One Hundred Thousand Dollars ($29,100,000.00) in currently owed debt shall be reduced by BANA (the “Debt Reduction Amount”).
(2) Escrow Account. Within thirty (30) calendar days
of Preliminary Approval, BANA shall deposit the Cash
Settlement Amount into the Settlement Fund Account,
which shall be held with BANA.
(3) Calculation of Class Member Awards. Each Class
Member who paid at least one EOBC that was assessed
during the Class Period and not refunded or charged off
shall be entitled to receive a cash payment from the Net
Cash Settlement Amount. The Net Cash Settlement
Amount will be divided by the number of EOBCs collectively paid by all Class Members who paid at least one
EOBC during the Class Period, to yield a per-instance figure. Each Class Member Award shall equal the per-instance figure multiplied by the number of EOBCs paid by
that Class Member during the Class Period. Joint accountholders shall each be entitled to their pro rata share
of a single Class Member Award.

App. 55a
(4) Debt Reduction Payments. For Class Members
who were assessed an EOBC during the Class Period, and
whose accounts were closed while an EOBC was still due
and owing, the Debt Reduction Amount will be used by
BANA to make Debt Reduction Payments toward the outstanding balance on the account that was closed with the
EOBC still due and owing in an amount up to $35 to reflect
a credit for the outstanding EOBC. If the outstanding balance exceeds $35, the Debt Reduction Payment will be
$35. If the outstanding balance is less than $35, the account balance will be adjusted to zero dollars. Under no
circumstances will BANA be required to make any cash
payments as a result of the Debt Reduction or make Debt
Reduction Payments exceeding the Debt Reduction
Amount. To the extent BANA has reported the accounts
to any credit bureaus, BANA will update the reporting. In
the event the Debt Reduction Payment brings the account
balance to zero, the reporting will be updated to state that
the account was paid in full. In the event the Debt Reduction Payment does not bring the account balance to zero,
the reporting will be updated only to state that a partial
payment has been made on the account. No Debt Reduction Payment shall be considered an admission by any
Class Member that the underlying debt is valid.
(5) For the avoidance of doubt, it is agreed by the
Parties that a Class Member may qualify for relief from
both the Cash Settlement Amount and Debt Reduction
Amount by virtue of having paid one or more EOBCs during the Class Period that was not refunded and having
been assessed at least one other EOBC during the Class
Period that was still due and owing when the account was
closed.

App. 56a
2.3 Releases.
(a) Class Member Release. Upon the Effective Date,
Plaintiffs and each Class Member who has not opted out
of the Settlement Class pursuant to the procedures set
forth in Section 2.5 releases, waives, and forever discharges BANA and each of its present, former, and future
parents, predecessors, successors, assigns, assignees, affiliates, conservators, divisions, departments, subdivisions, owners, partners, principals, trustees, creditors,
shareholders, joint venturers, co-venturers, officers, and
directors (whether acting in such capacity or individually),
attorneys, vendors, insurers, accountants, nominees,
agents (alleged, apparent, or actual), representatives, employees, managers, administrators, and each person or entity acting or purporting to act for them or on their behalf,
including, but not limited to, Bank of America Corporation
and all of its subsidiaries and affiliates (collectively,
“BANA Releasees”) from any and all claims they have or
may have against the BANA Releasees with respect to the
assessment of EOBCs as well as (i) any claim or issue
which was or could have been brought relating to EOBCs
against any of the BANA Releasees in the Action and (ii)
any claim that any other overdraft charge imposed by
BANA during the Class Period, including but not limited
to EOBCs and initial overdraft fees, constitutes usurious
interest, in all cases including any and all claims for damages, injunctive relief, interest, attorney fees, and litigation expenses (the “Released BANA Claims”).
(b) Unknown Claims. With respect to the Released
BANA Claims, Plaintiffs and the Class Members shall be
deemed to have, and by operation of the Settlement shall
have, expressly waived and relinquished, to the fullest extent permitted by law, the provisions, rights and benefits

App. 57a
of Section 1542 of the California Civil Code (to the extent
it is applicable, or any other similar provision under federal, state or local law to the extent any such provision is
applicable), which reads:
A GENERAL RELEASE DOES NOT EXTEND TO
CLAIMS WHICH THE CREDITOR DOES NOT
KNOW OR SUSPECT TO EXIST IN HIS OR HER
FAVOR AT THE TIME OF EXECUTING THE
RELEASE, WHICH IF KNOWN BY HIM OR HER
MUST HAVE MATERIALLY AFFECTED HIS
SETTLEMENT WITH THE DEBTOR
Thus, subject to and in accordance with this Agreement, even if the Plaintiffs and/or Class Members may discover facts in addition to or different from those which
they now know or believe to be true with respect to the
subject matter of the Released BANA Claims, Plaintiffs
and each Class Member, upon entry of Final Approval of
the Settlement, shall be deemed to have and by operation
of the Final Approval Order, shall have, fully, finally, and
forever settled and released all of the Released BANA
Claims. This is true whether such claims are known or unknown, suspected, or unsuspected, contingent or non-contingent, whether or not concealed or hidden, which now
exist, or heretofore have existed upon any theory of law or
equity now existing or coming into existence in the future,
including, but not limited to, conduct which is negligent,
intentional, with or without malice, or a breach of any
duty, law, or rule, without regard to the subsequent discovery or existence of such different or additional facts.
(c) Covenant Not to Sue. Plaintiffs and the Settlement
Class covenant not to sue or otherwise assert any claims
for usury against BANA challenging BANA’s practices

App. 58a
with respect to overdraft fees, including EOBCs and initial overdraft item fees, including, but not limited to, any
claims arising under the NBA or any other usury statute,
during the period of time the changes to business practices set forth in Section 2.2(a) remain in effect, but in no
case beyond December 31, 2022.
2.4 Notice Procedures
(a) Class Action Administrator. The Administrator
shall perform the duties, tasks, and responsibilities associated with providing notice and administering the Settlement. BANA shall pay all Administrative Costs. The
Administrator’s Hourly Charges will be paid out of the
Cash Settlement Amount.
(b) Provision of Information to Administrator. Within
fifteen (15) calendar days of Preliminary Approval, BANA
will provide the Administrator with the following information, which will be kept strictly confidential between
the Administrator and BANA, for each Class Member: (i)
name; (ii) last known e-mail address; (iii) last known mailing address; (iv) the number of EOBCs that each Class
Member paid during the Class Period, if any; (v) whether
the account that incurred the EOBC remains open; (vi) if
the account that incurred the EOBC no longer remains
open, whether there was an EOBC due and owing at the
time the account was closed; and (vii) if the account that
incurred the EOBC no longer remains open, the balance
remaining due and owing. The Administrator shall use the
data provided by BANA to make the calculations required
by the Settlement, and the Administrator shall share the
calculations with Class Counsel. The Administrator shall
use this information solely for the purpose of administering the Settlement.

App. 59a
(c) Class Notices. Within sixty (60) calendar days of
Preliminary Approval, or by the time specified by the
Court, the Administrator shall send the Class Notices in
the forms attached hereto as Exhibits B, C, and D, or in
such form as is approved by the Court, to the Class Members. The Administrator shall send the “Email Notice,” attached hereto as Exhibit B, to all Class Members for
whom BANA has provided the Notice Administrator with
an e-mail address. The Administrator shall send the
“Postcard Notice,” attached hereto as Exhibit C, to all
Class Members for whom BANA has not provided an
email address and to all Class Members to whom the Administrator sent Exhibit B via email but for whom the Administrator receives notice of an undeliverable email.
Exhibit C shall be mailed after the Administrator updates
mailing addresses provided by BANA with the National
Change of Address database and other commercially feasible means. The Administrator shall also maintain a website containing the Complaint, the “long-form notice,”
attached hereto as Exhibit D, Plaintiffs’ motion seeking
Preliminary Approval, the Preliminary Approval Order,
Plaintiffs’ motion seeking Final Approval, and the Final
Approval Order until at least ninety (90) calendar days after Final Approval. The Administrator shall send the longform notice by mail to any Class Member who requests a
copy. It will be conclusively presumed that the intended
recipients received the Class Notices if the Administrator
did not receive a bounce-back message and if mailed Class
Notices have not been returned to the Administrator as
undeliverable within fifteen (15) calendar days of mailing.

App. 60a
2.5 Opt-Outs and Objections.
As set forth below, Class Members shall have the right
to opt-out of the Settlement Class and this Settlement or
to object to this Settlement.
(a) Requirements for Opting-Out. If a Class Member
wishes to be excluded from the Settlement Class and this
Settlement, that Class Member is required to submit to
the Administrator at the website address listed in the
Class Notices, a written, signed, and dated statement that
he or she is opting out of the Settlement Class and understands that he or she will not receive a Class Member
Award or a Debt Reduction Payment from the Settlement
of the Action. To be effective, this opt-out statement (i)
must be received by the Administrator by the Opt-Out
Deadline, (ii) include the Class Member’s name, last four
digits of his or her social security number, and BANA account number(s), and (iii) must be personally signed and
dated by the Class Member(s). The Administrator will,
within five (5) business days of receiving any optout statement, provide counsel for the Parties with a copy of the
opt-out statement. The Administrator will, at least five (5)
court days before the Final Approval Hearing, file copies
of all opt-out statements with the Court. The Settlement
Class will not include any individuals who send timely and
valid opt-out statements, and individuals who opt out are
not entitled to receive a Class Member Award or Debt Reduction Payment under this Settlement.
(b) Objections. Any Class Member who has not submitted a timely opt-out form and who wishes to object to the
fairness, reasonableness, or adequacy of the Settlement
must both file a written objection with the Court by the
Objection Deadline and send that written objection to

App. 61a
BANA’s counsel and to Class Counsel at the addresses
listed below.
To be valid and considered by the Court, an objection
must (i) be postmarked on or before the Objection Deadline; (ii) state each objection the Class Member is raising
and the specific legal and factual bases for each objection;
(iii) include proof that the individual is a member of the
Settlement Class; (iv) identify, with specificity, each instance in which the Class Member or his or her counsel
has objected to a class action settlement in the past five (5)
years, including the caption of each case in which the objector has made such objection, and a copy of any orders
or opinions related to or ruling upon the objector’s prior
such objections that were issued by the trial and appellate
courts in each listed case; (v) the identity of all counsel who
represent the objector, including any former or current
counsel who may be entitled to compensation for any reason related to the objection to the Settlement or fee application; (vi) any and all agreements that relate to the
objection or the process of objecting – whether written or
verbal – between objector or objector’s counsel and any
other person or entity; and (vii) be personally signed by
the Class Member. All evidence and legal support a Class
Member wishes to use to support an objection must be
filed with the Court and sent to the Parties by the Objection Deadline.
Plaintiffs and BANA may file responses to any objections that are submitted. Any Class Member who timely
files and serves an objection in accordance with this section may appear at the Final Approval Hearing, either in
person or through an attorney, if the Class Member files
a notice indicating that he/she wishes to appear at the Final Approval Hearing with the Clerk of Court no later

App. 62a
than twenty (20) calendar days before the Final Approval
Hearing. A Class Member who wishes to appear at the Final Approval Hearing must also send a copy of the notice
indicating that he/she wishes to appear to BANA’s counsel
and to Class Counsel twenty (20) calendar days before the
Final Approval Hearing. Failure to adhere to the requirements of this section will bar a Class Member from being
heard at the Final Approval Hearing, either individually
or through an attorney, unless the Court otherwise orders.
The Parties shall have the right to take discovery, including via subpoenas duces tecum and depositions, from
any objector.
(c) Waiver of Objections. Except for Class Members
who opt-out of the Settlement Class in compliance with the
foregoing, all Class Members will be deemed to be members of the Settlement Class for all purposes under this
Agreement, the Final Approval Order, and the releases
set forth in this Agreement and, unless they have timely
asserted an objection to the Settlement, shall be deemed
to have waived all objections and opposition to its fairness,
reasonableness, and adequacy.
(d) No Encouragement of Objections. Neither the Parties nor any person acting on their behalf shall seek to solicit or otherwise encourage anyone to object to the
Settlement or appeal from any order of the Court that is
consistent with the terms of this Settlement.
2.6 Benefit Distribution
(a) Within ten (10) days of Final Approval, the Administrator shall provide to BANA: (1) for accounts entitled to

App. 63a
receive Class Member Awards, a list of the Class Members who are entitled to receive Class Member Awards,
along with the bank account numbers for each account entitled to receive a Class Member Award and the amount
of each Class Member Award due to each eligible bank account, and (2) for accounts entitled to receive a Debt Reduction Payment, a list of such accounts, along with the
bank account numbers for each account entitled to receive
a Debt Reduction Payment, and the amount of the Debt
Reduction Payment due to each eligible bank account. The
information provided by the Administrator shall be considered conclusive as to which individuals are entitled to
receive a Class Member Award or Debt Reduction Payment and as to the amount of the Class Member Award
and/or Debt Reduction Payment to which each Class
Member is entitled.
(b) Distribution of Class Member Awards. In the event
that the accounts from which Class Members paid the
EOBCs and that make the Class Members eligible for
Class Member Awards remain open, the Class Member
Awards will be credited via direct deposit by BANA to
Class Members’ BANA accounts (“Direct Deposit Payments”). The Direct Deposit Payments will be accompanied by a description on bank statements to be determined
by BANA after consulting with Class Counsel. BANA
shall make Direct Deposit Payments to Class Members
within thirty (30) calendar days of the Effective Date.
Within forty-five (45) calendar days of the Effective Date,
BANA shall provide to the Administrator a list of Class
Members, and corresponding account numbers, to whom
BANA distributed Direct Deposit Payments and the
amount of each Direct Deposit Payment.

App. 64a
(c) Within sixty (60) calendar days of the Effective
Date, the Administrator shall send Class Member Awards
from the Settlement Fund Account via check to all Class
Members entitled to Class Member Awards who did not
receive the entirety of the Class Member Awards to which
they are entitled under this Settlement via Direct Deposit
Payments. If the Class Members who are entitled to Class
Member Awards are joint accountholders, the Class Member Award check shall be made payable to both accountholders.
(d) Mailing Addresses. Prior to mailing Class Member
Award checks, the Administrator shall attempt to update
the last known addresses of the Class Members through
the National Change of Address Database or similar databases. No skip-tracing shall be done as to any checks that
are returned by the postal service with no forwarding address. Class Member Award checks returned with a forwarding address shall be re-mailed to the new address
within seven (7) calendar days. The Administrator shall
not mail Class Member Award checks to addresses from
which Class Notices were returned as undeliverable.
(e) Interest. All interest on the funds in the Settlement
Fund Account shall accrue to the benefit of the Settlement
Class. Any interest shall not be subject to withholding and
shall, if required, be reported appropriately to the Internal Revenue Service by the Administrator. The Administrator is responsible for the payment of all taxes on
interest on the funds in the Settlement Fund Account.
(f) Time for Depositing Class Member Award Checks.
If a Class Member’s Class Member Award check is not
deposited (or cashed) within one hundred and twenty (120)
calendar days after the check is mailed, (a) the check will

App. 65a
be null and void; and (b) the Class Member will be barred
from receiving a further Class Member Award under this
Settlement.
(g) Distribution of Debt Reduction Payments. Within
thirty (30) calendar days of the Effective Date, BANA
shall make the Debt Reduction Payments as described in
Section 2.2(b)(4). Within forty-five (45) calendar days of
the Effective Date, the Administrator shall send notifications of such Debt Reduction Payments to each eligible
Settlement Class Member, which notice shall include the
amount of the Debt Reduction Payment and notification
that if the Debt Reduction Payment brought the balance
to zero the account will be reported as paid in full and that
if the Debt Reduction Payment did not bring the balance
to zero, the account will be reported as having had a partial payment made.
(h) Deceased Class Members. Any Class Member
Award paid to a deceased Class Member shall be made
payable to the estate of the deceased Class Member, provided that the Class Member’s estate informs the Administrator of the Class Member’s death at least thirty (30)
calendar days before the date that Class Member Award
checks are mailed and provides a death certificate confirming that the Class Member is deceased. If the Class
Member’s estate does not inform the Administrator of the
Class Member’s death at least thirty (30) calendar days
before Class Member Award checks are mailed, the deceased Class Member will be barred from receiving a
Class Member Award under this Settlement.
(i) Tax Obligations. The Parties shall have no responsibility or liability for any federal, state, or other taxes
owed by Class Members as a result of, or that arise from,

App. 66a
any Class Member Awards or any other term or condition
of this Agreement.
(j) Tax Reporting. The Administrator shall prepare,
send, file, and furnish all tax information reporting forms
required for payments made from the Settlement Fund
Account as required by the Internal Revenue Service pursuant to the Internal Revenue Code and related Treasury
Regulations. The Parties hereto agree to cooperate with
the Administrator, each other, and their tax attorneys and
accountants to the extent reasonably necessary to carry
out the provisions set forth in this section.
(k) Reports. The Administrator shall provide the Parties with a reconciliation and accounting of the Settlement
Fund Account at each of the following times: (i) no later
than ten (10) calendar days after the Class Member
Award checks are mailed, and (ii) no later than ten (10)
calendar days after the expiration of the 120-day period
for depositing Class Member Award checks.
Section 3. Class Representative Service Award and
Class Counsel’s Fee & Expense Award
3.1 Class Representative Service Awards. Plaintiffs,
through their undersigned counsel, shall each be entitled
to apply to the Court for an award from the Cash Settlement Amount of up to $5,000 for their participation in the
Action and their service to the Settlement Class (“the
Class Representative Service Award”). BANA shall not
oppose or appeal such application that does not exceed
$5,000. The Class Representative Service Awards shall be
paid from the Settlement Fund Account. BANA shall
place the Class Representative Service Awards into the

App. 67a
Settlement Fund Account within ten (10) days of the Effective Date.
3.2 Fee & Expense Award. The Parties consent to the
Court appointing Class Counsel in this Action for purposes of the Settlement. Class Counsel shall be entitled to
apply to the Court for an award from the Cash Settlement
Amount not to exceed 25% of the Settlement Value to reimburse Class Counsel for attorneys’ fees incurred in researching, preparing for, and litigating this Action, and
Class Counsel may also apply for reimbursement for costs
and expenses incurred in the Action (“the Fee & Expense
Award”). BANA agrees not to oppose or appeal any such
application that does not exceed 25% of the Settlement
Value plus reimbursement for costs and expenses incurred in the Action. The Fee & Expense Award shall constitute full satisfaction of any obligation on the part of
BANA to pay any person, attorney, or law firm for costs,
litigation expenses, attorneys’ fees, or any other expense
incurred on behalf of Plaintiffs or the Settlement Class.
The Administrator shall pay the the Fee & Expense
Award to Class Counsel from the Settlement Fund Account within ten (10) days of the date the Fee & Expense
Award is granted. In the event the Effective Date does not
occur or the Fee & Expense Award is reduced following
an appeal, Class Counsel shall repay the BANA the full
amount of the Fee & Expense Award or the amount of the
reduction, for which all Class Counsel shall be jointly and
severally liable.
3.3 Demarcation. It is the intention of the Parties to
demarcate clearly between proceeds from the Settlement
in which Class Members have an interest, which may subject them to tax liability, and the Fee & Expense Award.
Accordingly, the amount paid separately to Class Counsel

App. 68a
for the Fee & Expense Award is independent of and apart
from the amounts paid to Class Members, and Class Members shall at no time have any interest in the Fee & Expense Award. The Parties make no representation
regarding and shall have no responsibility for the tax
treatment of the Fee & Expense Award, or any other payments paid to Class Counsel or the tax treatment of any
amounts paid under this Agreement.
3.4 The funds in the Settlement Fund Account shall be
deemed a “qualified settlement fund” within the meaning
of United States Treasury Reg. § 1.468B-l at all times
since creation of the Settlement Fund Account. All taxes
(including any estimated taxes, and any interest or penalties relating to them) arising with respect to the income
earned by the Settlement Fund Account or otherwise, including any taxes or tax detriments that may be imposed
upon BANA, BANA’s counsel, Plaintiffs and/or Class
Counsel with respect to income earned by the Settlement
Fund Account for any period during which the Settlement
Fund Account does not qualify as a “qualified settlement
fund” for the purpose of federal or state income taxes or
otherwise (collectively “Taxes”), shall be paid out of the
Settlement Fund Account. BANA and BANA’s counsel
and Plaintiffs and Class Counsel shall have no liability or
responsibility for any of the Taxes. The Settlement Fund
Account shall indemnify and hold BANA and BANA’s
counsel and Plaintiffs and Class Counsel harmless for all
Taxes (including, without limitation, Taxes payable by
reason of any such indemnification).
3.5 Residual. In the event that there is any residual in
the Settlement Fund Account after the distributions required by this Agreement are completed, said funds shall
in no circumstance revert to BANA. At the election of

App. 69a
Class Counsel and counsel for BANA, and subject to the
approval of the Court, the funds may be distributed to Settlement Class Members via a secondary distribution if
economically feasible or through a residual cy pres program. Any residual secondary distribution or cy pres distribution shall be paid as soon as reasonably possible
following the completion of distribution of funds to the
Settlement Class Members.
Section 4. Settlement Approval
4.1 Preliminary Approval. On or before October 31,
2017, Plaintiffs will submit for the Court’s consideration a
motion seeking Preliminary Approval of the Settlement
and apply to the Court for entry of the Preliminary Approval Order attached as Exhibit A. In the event the Court
does not enter the Preliminary Approval Order in the
same form as Exhibit A, BANA has the right to terminate
this Agreement and the Settlement and will have no further obligations under the Agreement unless BANA
waives in writing its right to terminate the Agreement due
to any changes or deviations from the form of the Preliminary Approval Order. In Plaintiffs’ motion seeking Preliminary Approval, Plaintiffs shall request that the Court
approve the Class Notices attached at Exhibits B, C and
D. The Court will ultimately determine and approve the
content and form of the Class Notices to be distributed to
Class Members.
The Parties further agree that in Plaintiffs’ motion
seeking Preliminary Approval, Plaintiffs will request that
the Court enter the following schedule governing the Settlement: (i) deadline for sending the Class Notices: sixty
(60) calendar days from Preliminary Approval; (ii) deadline for filing motions for Class Representative Service

App. 70a
Award and Fee & Expense Award: one hundred (150) calendar days from Preliminary Approval; (iii) deadline for
opting out or serving objections: one-hundred twenty
(120) calendar days from Preliminary Approval; and (iv)
Final Approval Hearing: one-hundred eighty (180) calendar days from Preliminary Approval.
4.2 Final Approval. Plaintiffs will submit for the
Court’s consideration, by the deadline set by the Court,
the Final Approval Order attached as Exhibit E. The motion for Final Approval of this Settlement shall include a
request that the Court enter the Final Approval Order
and, if the Court grants Final Approval of the Settlement
and incorporates the Agreement into the final judgment,
that the Court dismiss this Action with prejudice, subject
to the Court’s continuing jurisdiction to enforce the
Agreement. In the event that the Court does not enter the
Final Approval Order in materially the same form as Exhibit E, as determined by BANA, BANA has the right to
terminate this Agreement and the Settlement and will
have no further obligations under the Agreement unless
BANA waives in writing its right to terminate the Agreement due to any material changes or deviations from the
form of the Final Approval Order. While materiality remains subject to BANA’s determination in its reasonable
discretion, material changes shall not include any changes
to the legal reasoning or format used by the Court to justify the substantive relief sought by the Final Approval
Order. In the event that the Effective Date does not come
to pass, the Final Approval Order is vacated or reversed
or the Settlement does not become final and binding, the
Parties agree that the Court shall vacate any dismissal
with prejudice.

App. 71a
4.3 Effect of Disapproval. If the Settlement does not
receive Final Approval or the Effective Date does not
come to pass, BANA shall have the right to terminate this
Agreement and the Settlement and will have no further
obligations under the Agreement unless BANA waives in
writing its right to terminate the Agreement under this
section. In addition, the Parties agree that if this Agreement becomes null and void, BANA shall not be prejudiced in any way from opposing class certification in the
Action, and Plaintiffs and the Class Members shall not use
anything in this Agreement, in any terms sheet, or in the
Preliminary Approval Order or Final Approval Order to
support a motion for class certification or as evidence of
any wrongdoing by BANA. No Party shall be deemed to
have waived any claims, objections, rights or defenses, or
legal arguments or positions, including but not limited to,
claims or objections to class certification, or claims or defenses on the merits. Each Party reserves the right to
prosecute or defend this Action in the event that this
Agreement does not become final and binding.
Section 5. General Provisions
5.1 Cooperation. The Parties agree that they will cooperate in good faith to effectuate and implement the terms
and conditions of this Settlement.
5.2 Judicial Enforcement. If the Court enters the Final
Approval Order in substantially the same form as Exhibit
E to this Agreement, then the Court shall have continuing
authority and jurisdiction to enforce this Agreement. The
Parties shall have the authority to seek enforcement of
this Agreement and any of its aspects, terms, or provisions
under any appropriate mechanism, including contempt

App. 72a
proceedings. The Parties will confer in good faith prior to
seeking judicial enforcement of this Agreement.
5.3 Effect of Prior Agreements. This Agreement constitutes the entire agreement and understanding of the
Parties with respect to the Settlement of this Action, contains the final and complete terms of the Settlement of the
Action and supersedes all prior agreements between the
Parties regarding Settlement of the Action. The Parties
agree that there are no representations, understandings,
or agreements relating to the Settlement of this Action
other than as set forth in this Agreement. Each Party
acknowledges that it has not executed this Agreement in
reliance upon any promise, statement, representation, or
warranty, written or verbal, not expressly contained
herein.
5.4 No Drafting Presumption. All Parties hereto have
participated, through their counsel, in the drafting of this
Agreement, and this Agreement shall not be construed
more strictly against any one Party than the other Parties.
Whenever possible, each term of this Agreement shall be
interpreted in such a manner as to be valid and enforceable. Headings are for the convenience of the Parties only
and are not intended to create substantive rights or obligations.
5.5 Notices. All notices to the Parties or counsel for the
Parties required or desired to be given under this Agreement shall be in writing and sent by overnight mail as follows:

App. 73a
To Plaintiffs and the Settlement Class:
Jeffrey D. Kaliel
Tycko & Zavareei LLP
1828 L Street, NW
Suite 1000
Washington, DC 20036
Jeff Ostrow
Kopelowitz Ostrow P.A.
1 West Las Olas Blvd.
Suite 500
Fort Lauderdale, FL 33301
Bryan Gowdy
Creed & Gowdy, P.A.
865 May Street
Jacksonville, FL 32204
Cristina Pierson
John R. Hargrove
Kelley Uustal PC
500 North Federal Highway
Suite 200
Fort Lauderdale, FL 33301
To BANA:
Matthew W. Close
O’Melveny & Myers LLP
400 South Hope Street
Los Angeles, CA 90071-2899

App. 74a
Danielle N. Oakley
O’Melveny & Myers LLP
610 Newport Center Drive, Suite 1700
Newport Beach, CA 92660
5.6 Modifications. No modifications to this Agreement
may be made without written agreement of all Parties and
Court approval.
5.7 No Third-Party Beneficiaries. This Agreement
shall not inure to the benefit of any third party.
5.8 Execution in Counterparts. This Agreement may
be executed in counterparts. Each signed counterpart together with the others shall constitute the full Agreement.
Each signatory warrants that the signer has authority to
bind his/her party.
5.9 CAFA. The Administrator shall timely send the notices required by 28 U.S.C. § 1715 within ten (10) calendar
days after Plaintiffs files the motion seeking Preliminary
Approval of the Settlement.
5.10 Deadlines. If any of the dates or deadlines specified herein falls on a weekend or legal holiday, the applicable date or deadline shall fall on the next business day.
FOR PLAINTIFFS AND THE SETTLEMENT
CLASS:
/s/ Joanne Farrell
Joanne Farrell

10/30/2017
Date

App. 75a
/s/ Ronald Dinkins
Ronald Dinkins

10/30/2017
Date

/s/ Larice Addamo
Larice Addamo

10/30/2017
Date

/s/ Tia Little
Tia Little

10/30/2017
Date

/s/ Jeffrey D. Kaliel_
Jeffrey D. Kaliel
Tycko & Zavareei LLP
1828 L Street, NW
Suite 1000
Washington, DC 20036
(202 973-0900

10/31/2017

Jeff Ostrow
Kopelowitz Ostrow P.A.
1 West Las Olas Blvd.
Suite 500
Fort Lauderdale, FL 33301
Brian Gowdy
Creed & Gowdy, P.A.
865 May Street
Jacksonville, FL 32204
(904) 350-0075

Date

App. 76a
John R. Hargrove
Kelley Uustal PC
500 North Federal Highway
Suite 200
Fort Lauderdale, FL 33301
(954) 522-6601
FOR BANK OF AMERICA, N.A.:
/s/ Illegible
Title: Managing Director
Sr. Product Management Executive
Retail & Preferred Products

10/30/2017
Date

App. 77a
Appendix F
THEODORE H. FRANK (SBN 196332)
Competitive Enterprise Institute
Center for Class Action Fairness
1310 L Street NW, 7th Floor
Washington, DC 20005
Voice: (202) 331-2263
Email: ted.frank@cei.org
Attorney for Rachel Threatt

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF CALIFORNIA
JOANNE FARRELL, on behalf of
herself and all others similarly situ- Case No. 3:16ated,
cv-00492-LPlaintiff, WVG
V.

BANK OF AMERICA, N.A.,
Defendant,

OBJECTION
OF RACHEL
THREATT
Judge: Hon. M.
James Lorenz

________________________________ Place: Courtroom 5B
RACHEL THREATT,
Objector. Hearing Date:
June 18, 2018,
at 11:00 a.m.

App. 78a
INTRODUCTION
Class counsel seek an astonishing $7,715 per hour in
fees for their work over the course of a mere 20 monthlitigation that settled on docket entry number 69. The
work did not require a massive team of lawyers working
around the clock. Rather, it was a fly-by-night operation
requiring less than 2200 hours, with counsel lobbing similar actions in various other courts to see where they might
succeed. See Fee Motion 12, 20. The fee request is audacious on its face, representing more than 11 times the
claimed value of their hourly work, but it gets worse once
one looks past the superficial lodestar presentation. In
particular, counsel improperly seek credit in their lodestar
for work on other litigations, future anticipated hours, and
time spent on their fee request, as well as an excessive
number of hours for settlement work. Once one removes
those excessive hours, the fee multiplier increases to
nearly 18, equal to an hourly rate of $11,894. This unreasonableness is compounded by the strong presumption set
by the Supreme Court that lodestar is sufficient without a
multiplier.
The class should not be billed such an excessive
amount. Their claims were significantly compromised; by
class counsel’s own estimation, they are recovering less
than 10% of the value of their claims. In other words, the
class is being asked to settle, while counsel is handsomely
rewarded many times over with funds that should be used
to augment class members’ recovery. The Court should
reduce the fee award to no more than 10% of the net fund,
or $6.66 million, which still amounts to a 4.75 multiplier
and will return about $10 million to the class.

App. 79a
That counsel seeks to apply the Circuit’s benchmark
shows precisely why a lodestar crosscheck is important to
prevent windfalls. But even when assessed on its own, 25%
of $66.6 million is too high. First, the fund amount includes
$29.1 million of “debt reduction,” for class members whose
accounts were closed with a negative balance—a structure
that is less beneficial to them than cash and costs Bank of
America, N.A. (“BANA”) significantly less due to the unlikelihood it would ever recover anywhere close to 100% of
the delinquent amounts. Second, the size of the fund is due
not to the efforts of class counsel but to the size of the
class. In such cases, the fee percentage should be reduced
from the benchmark to account for economies of scale. Finally, the change in BANA’s practice regarding extended
overdrawn balance charges (“EOBCs”) should be disregarded for purposes of the fee award, as it will simply shift
the types of fees that BANA charges the class rather than
eliminate them entirely.
In addition, the Court should strike or disregard the
Declaration of Brian T. Fitzpatrick because the gist of his
report constitutes inadmissible legal conclusions. The
Court is solely responsible for, and fully capable of, concluding what the law is and how it applies to the applicable
facts. Fitzpatrick’s aggregation of the case law and opinions about the value of this particular case are unhelpful
and improper.
Finally, the Settlement includes an impermissible
provision giving the parties authority to decide whether to
redistribute residual funds to an unnamed third party or
to the class. The Court should require amendment of this
cy pres provision before approving the settlement.

App. 80a
I. Rachel Threatt is a member of the class and intends
to appear through counsel at the fairness hearing.
Objector Rachel Threatt is a member of the class.
Her address is 304 Sunset Trail, New Lenox, IL 60451.
Her telephone number is (314) 750-0921. See Declaration
of Rachel Threatt (“Threatt Decl.”) ¶ 2. Threatt holds a
BANA consumer checking account. Between February
25, 2014, and December 30, 2017, she was assessed at least
one EOBC that was not refunded. She received notice by
postcard of the proposed settlement in this action. Id. ¶¶
3-4. She has not previously filed an objection to any class
action settlement. Id. ¶ 6.
Threatt intends to appear at the June 18, 2018, fairness hearing through her pro bono attorney Theodore H.
Frank of the Competitive Enterprise Institute’s Center
for Class Action Fairness (“CCAF”). Frank is a member
of the bar of the Southern District of California. At this
time, Threatt does not intend to call any witnesses at the
fairness hearing, but reserves the right to make use of all
documents entered on the docket by any settling party or
objector and the right to cross-examine any witnesses who
testify at the hearing in support of final approval.
CCAF represents class members pro bono in class
actions where class counsel employs unfair class action
procedures to benefit themselves at the expense of the
class. Since it was founded in 2009, CCAF has “recouped
more than $100 million for class members” by driving the
settling parties to reach an improved bargain or by reducing outsized fee awards. Andrea Estes, Critics hit law
firms’ bills after class-action lawsuits, BOSTON GLOBE

App. 81a
(Dec. 17, 2017). CCAF’s track record—and preemptive response to the most common false ad hominem attacks
made against it by attorneys defending unfair settlements
and fee requests—can be found in the Declaration of Theodore H. Frank. To avoid doubt about her motives,
Threatt is willing to stipulate to an injunction prohibiting
her from accepting compensation in exchange for the settlement of her objection. See Brian T. Fitzpatrick, The
End of Objector Blackmail?, 62 VAND. L. REV. 1623 (2009)
(suggesting inalienability of objections as solution to objector blackmail problem). Threatt brings this objection
through CCAF in good faith to protect the interests of the
class. Threat Decl. ¶8.
II. The Court owes a fiduciary duty to unnamed class
members.
“Class-action settlements are different from other
settlements. The parties to an ordinary settlement bargain away only their own rights—which is why ordinary
settlements do not require court approval.” In re Dry Max
Pampers Litig., 724 F.3d 713, 715 (6th Cir. 2013). Unlike
ordinary settlements, “class-action settlements affect not
only the interests of the parties and counsel who negotiate
them, but also the interests of unnamed class members
who by definition are not present during the negotiations…. [T]hus, there is always the danger that the parties
and counsel will bargain away the interests of unnamed
class members in order to maximize their own.” Id. To
guard against this danger, a district court must act as a
“fiduciary for the class … with ‘a jealous regard’” for the
rights and interests of absent class members. In re Mercury Interactive Corp. Sec. Litig., 618 F.3d 988, 994 (9th
Cir. 2010) (quoting In re Washington Pub. Power Supply

App. 82a
Sys. Litig. (“WPPSS”), 19 F.3d 1291, 1302 (9th Cir. 1994)).
Threatt raises two primary objections, both of which invoke the Court’s special fiduciary role: (1) the settlement’s
residual clause authorizes class counsel to prioritize yetto-be-designated cy pres recipients ahead of class members’ interests; and (2) class counsel seeks an excessive
and unreasonable fee.
First, cy pres, “unbridled by a driving nexus between the plaintiff class and the cy pres beneficiaries—
poses many nascent dangers to the fairness of the distribution process.” Nachshin v. AOL, LLC, 663 F.3d 1034,
1038 (9th Cir. 2011). As such, any cy pres provision “must
be examined with great care to eliminate the possibility
that it serves only the ‘selfinterests’ of the attorneys and
the parties, and not the class, by assigning a dollar number
to the fund that is fictitious.” Dennis v. Kellogg Co., 697
F.3d 858, 868 (9th Cir. 2012).
With respect to Threatt’s objection to class counsel’s
fee request, the need for court oversight is even more apparent. At the fee-setting stage, the relationship between
class counsel and the class turns directly and unmistakably adversarial because counsel’s “interest in getting paid
the most for its work representing the class [is] at odds
with the class’ interest in securing the largest possible recovery for its members.” Mercury Interactive, 618 F.3d at
994. Given this inherent adversity, there can be no deference to class counsel’s recommendation. Meanwhile, “in
most common-fund cases, defendants have little interest
in challenging class counsel’s timesheets.” Gutierrez v.
Wells Fargo Bank, N.A., No. 07-cv-05923 WHA, 2015 WL
2438274, at *6 (N.D. Cal. May 21, 2015). That is the case
here. The settlement permits without opposition from the

App. 83a
defendant, any fee request up to 25% of the gross settlement fund. Settlement § 3.2. No individual class member
has the financial incentive to object to an exorbitant fee
request either; “[h]is gain from a reduction, even a large
reduction, in the fees awarded the lawyers would be
miniscule.” In re Continental Ill. Sec. Litig., 962 F.2d 566,
573 (7th Cir. 1992). The district court (and good-faith public-minded objectors) serve as the last line of defense. “Active judicial involvement in measuring fee awards is
singularly important to the proper operation of the classaction process.” Advisory Committee Notes on 2003
Amendments to Rule 23.
III. Before the settlement can be approved, the parties
must amend the settlement’s residual clause to comport with limitations on cy pres.
In relevant part, the settlement provision governing
the dispositive of residual settlement funds reads as follows: “At the election of Class Counsel and counsel for
BANA, and subject to the approval of the Court, the funds
may be distributed to Settlement Class Members via a
secondary distribution if economically feasible or through
a residual cy pres program.” Settlement § 3.5. This provision suffers from two fatal defects. First, neither the settlement nor accompanying class notice identify a proposed
cy pres beneficiary, thus rendering the settlement “unacceptably vague.” Dennis, 697 F.3d at 867. Second, Section
3.5 permits the parties to choose between a secondary
class distribution or a cy pres distribution at their discretion. But there should be no discretion granted; if secondary class distributions are economically feasible, the law
requires them. E.g. AMERICAN LAW INSTITUTE,
PRINCIPLES OF THE LAW OF AGGREGATE LITIG. § 3.07(b)

App. 84a
(2010) (“ALI Principles”); In re BankAmerica Corp. Secs.
Litig., 775F.3d 1060, 1066 (8th Cir. 2015) (finding “void ab
initio” a provision that purported to override ALI Principles § 3.07(b)); see also In re Hydroxycut Mktg. & Sales
Practices Litig., No. 09-md-2087- BTM, 2013 WL 6086933,
at *4 (S.D. Cal. Nov. 19, 2013) (following ALI Principles §
3.07(b) and denying settlement approval). Simply put, cy
pres “is not appropriate” where “the settlement is distributable to class members.” Hofmann v. Dutch LLC, 317
F.R.D. 566, 578 (S.D. Cal. 2016).
As a threshold matter, the residual clause founders
by failing to propose a “concrete, identifiable beneficiary.”
Hofmann v. Dutch LLC, No. 14-cv-02418-GPC, 2017 WL
840646, at *5 (S.D. Cal. Mar. 2, 2017). “To ensure that the
settlement retains some connection to the plaintiff class
and the underlying claims … a cy pres award must qualify
as the next best distribution to giving the funds directly to
class members.” Dennis, 697 F.3d at 865. Where the parties do not establish the potential recipient has such an appropriate nexus, the settlement will not be approved. E.g.,
Koby v. ARS Nat’l Servs., 846 F.3d 1071, 1080 (9th Cir.
2017); Couser v. Comenity Bank, 2017 WL 2312080, at *4
(S.D. Cal. May 26, 2017).
Moreover, in an opt-out settlement, providing the
identity of potential cy pres recipients preserves the right
of absent class members to distance themselves from
causes or institutions that they would rather not support.
The information can underpin a valid objection if there is
an abuse of the cy pres mechanism if, for example, the intended recipient is related to class counsel or a defendant,
or when there is a geographic incongruence between the
class and the recipient. See Nachshin, 663 F.3d 1034. Even

App. 85a
where cy pres only arises from residual funds, it is still
“impermissible” to decline to specify a particular recipient. Thomas v. Magnachip Semiconductor Inc., No. 14cv-01160-JST, 2016 WL 1394278, at *8 (N.D. Cal. Apr. 7,
2016). The settlement’s failure to designate a recipient deprives the class of its due notice and this Court of any ability to conduct the searching review necessary. “‘Just trust
us. Uphold the settlement now, and we’ll tell you what it is
later’” is not a permissible limiting principle. Dennis, 697
F.3d at 869.
Nor is “just trust us” an acceptable proposition for
deciding whether remaining funds should go to the class
or non-class third parties. “The settlement should presumptively provide for further distributions to participating class members unless the amounts involved are too
small to make individual distributions economically viable
or other specific reasons exist that would make such further distributions impossible or unfair.” ALI Principles §
3.07(b). This “last resort” rule follows from the precept
that “[t]he settlement-fund proceeds, … generated by the
value of the class members’ claims, belong solely to the
class members.” Klier v. Elf Atochem N. Am., 658 F.3d
468, 474 (5th Cir. 2011). To serve the class’s interests, cy
pres can only be employed as a last resort upon a showing
that further distributions are impossible. BankAmerica,
775 F.3d at 1064; Pearson v. NBTY, Inc., 772 F.3d 778 (7th

App. 86a
Cir. 2014). 1 The residual clause unlawfully gives the parties discretion to ignore the last resort rule. The Court
should deny settlement approval until the parties amend
Section 3.5 to conform with applicable law.
IV. The lodestar cross-check illuminates the excess of
class counsel’s fee request.
The Ninth Circuit encourages cross-checking any
percentage-based fee request using the lodestar method
to “confirm that a percentage of recovery amount does not
award counsel an exorbitant hourly rate.” In re Bluetooth
Headset Prods. Liab. Litig., 654 F.3d 935, 945 (9th Cir.
2011). A second method provides a “useful perspective”
and enables the Court to “guard against an unreasonable
result.” Vizcaino v. Microsoft Corp., 290 F.3d 1043, 1050
(9th Cir. 2002); In re Hyundai and Kia Fuel Economy
Litig., 881 F.3d 679, 705 (9th Cir. 2018). Cross-checking
becomes even more important as the size of the settlement
increases. Alexander v. FedEx Ground Package Sys., No.
05-cv-00038, 2016 WL 3351017, at *2 (N.D. Cal. June 15,

If additional distributions would provide “a windfall to class members with liquated damages claims that were 100 percent satisfied by
the initial distribution,” then a cy pres remedy may also be proper.
BankAmerica Corp., 775 F.3d at 1064. But “a vague anxiety over
windfalls” cannot justify preferring cy pres to class redistributions.
Rhonda Wasserman, Cy Pres In Class Action Settlements, 88 S. CAL.
L. REV. 97, 160 (2014). In any event, there should be no dispute here
that class members are not fully compensated. Debt reduction claims
are capped at $35, and the cash component of the settlement ($37 million) is less than 5% of the amount plaintiffs claim is at stake in the
case ($756 million). Mot. for Prelim. App. (Dkt. 69-1) at 17.
1

App. 87a
2016); see also WPPSS, 19 F.3d at 1298 (describing how
percentage-based awards become particularly arbitrary
for large funds). Keeping in mind the Court’s duty to class
members, the goal is to uncover a “disparity between the
percentage-based award and the fees the lodestar method
would support.” Wininger v. SI Mgmt. L.P., 301 F.3d
1115, 1124 n.8 (9th Cir. 2002).
Because of the potential to discourage hasty, undervalued settlements with generous attorney payments, legal scholars, practitioners, and judges have even gone so
far as to call the lodestar cross-check “essential.” Brian
Wolfman & Alan B. Morrison, Representing the Unrepresented in Class Actions Seeking Monetary Relief, 71
N.Y.U. L. REV. 439, 503 (1996); see also Brian Wolfman,
Judges! Stop Deferring to Class-Action Lawyers, 2 U.
MICH. J. L. REFORM 80, 84-85 (2013) (describing risk of
cheap, quick and undervalued settlement); Neil M. Gorsuch & Paul B. Matey, Settlements in Securities Fraud
Class Actions: Improving Investor Protection, WASH. L.
FOUND., 23 (2005), available at http://www.wlf.org/upload/0405WPGorsuch.pdf (lodestar cross-check is an “important safeguard”); Vaughn R. Walker & Ben Horwich,
The Ethical Imperative of a Lodestar Cross-Check: Judicial Misgivings About “Reasonable Percentage” Fees in
Common Fund Cases, 18 GEO. J. LEGAL ETHICS 1453,
1454 (2005) (“[W]e argue that courts making common fund
fee awards are ethically bound to perform a lodestar
cross-check.”).
Here, plaintiffs concede that they resolved the case
at an early stage, yet they resist the application of the
lodestar cross-check that is meant to safeguard the class
in such situations. Compare Fee Motion 14-15 with Fee

App. 88a
Motion 20-21. Plaintiffs’ expert Professor Fitzpatrick not
only disagrees with Justice Gorsuch that the cross-check
is an “important safeguard,” he opines that a lodestar
cross-check is affirmatively bad policy. Fitzpatrick Decl. ¶
24. He is incorrect, mostly because he ignores the difference between employing the lodestar as baseline methodology and employing the lodestar as a backup cross-check.
When used as a base methodology, lodestar occasions a
misalignment between the interests of class members and
their counsel, because a counsel’s fees do not depend on
the success its client obtains. However, when lodestar is
only employed as a cross-check, the ultimate fee still depends upon the benefit conferred on class members. The
cross-check resolves certain problems created by a pure
percentage approach: It prevents a trial penalty, 2 it forecloses hourly windfalls that a functioning marketplace
would not allow, and it discourages risk-averse 3 counsel
from entering into quick agreements that amount to a
small percentage of potential recovery. Fitzpatrick and
plaintiffs quote out of context the Ninth Circuit’s decision
in Yamada v. Nobel Biocare Holding AG, 825 F.3d 536
(9th Cir. 2016), to claim that the lodestar cross-check is
entirely discretionary. Fee Motion 20; Fitzpatrick Decl.
¶23. The full sentence from Yamada reads: “But where, as
here, classwide benefits are not easily monetized, a crosscheck is entirely discretionary.” 825 F.3d at 547. Yamada
refers only to percentage cross-checks of a base lodestar

2

See Brytus v. Spang & Co., 203 F.3d 238, 247 (3d Cir. 2000).

Because they have more at stake, class counsel are naturally
more risk averse than any given absent class member. E.g., Anderson
Living v. Wpx Energy Prod., 306 F.R.D. 312, 442 n.90 (D.N.M. 2015).
3

App. 89a
award; it is irrelevant here. What is relevant is the Ninth
Circuit’s general principle that “courts cannot rationally
apply any particular percentage…without reference to all
the circumstances of the case.” WPPSS, 19 F.3d at 1298.
“All the circumstances of the case” certainly includes the
time expended by class counsel. “Without such an inquiry
there is a grave danger that the bar and bench will be
brought into disrepute, and there will be prejudice to
those whose substantive interests are at stake and who are
unrepresented except by the very lawyers who are seeking compensation.” Grunin v. Int’l House of Pancakes,
513 F.2d 114, 128 (8th Cir. 1975) (cleaned up).
Unsurprisingly then, a large number of courts have
heeded the Ninth Circuit’s advice by employing a lodestar
cross-check, reducing fees and augmenting class recovery,
even where class counsel has requested no more than the
25% benchmark. See, e.g., In re Chiron Corp. Sec. Litig.,
2007 WL 4249902, at *7 (N.D. Cal. Nov. 30, 2007) (refusing
to grant 25% where it equated to excessive multiplier of 810); Rose v. Bank of Am., 2014 WL 4273358, at *12-*13
(N.D. Cal. Aug. 29, 2014) (refusing to grant 25% where it
equated to excessive multiplier of 8.65, instead granting
multiplier of 2.59 or 7.4% of fund); Xuechen Yang v. Focus
Media Holding, 2014 WL 4401280, at *16 (S.D.N.Y. Sept.
4, 2014) (refusing to award 25% where it amounted to a
3.99 multiplier, instead awarding 10%); Cruz v. Sky Chefs,
Inc., 2014 WL 7247065, at *7 (N.D. Cal. Dec. 19, 2014) (refusing to grant 25% where it would have amounted to a
1.63 multiplier; instead awarding 17% in fees for 1.12 multiplier); Bayat v. Bank of the West, 2015 WL 1744342, at
*8-*9 (N.D. Cal. Apr. 15, 2015) (refusing to award 25% that
equated to 2.76 multiplier when result was less than stellar); Greenberg v. Colvin, 2015 WL 4078042, at *8 (D.D.C.

App. 90a
July 1, 2015) (reducing fee from 25% to 20% where class
counsel would have otherwise been entitled to
$3,000/hour); Fangman v. Genuine Title, 2016 U.S. Dist.
LEXIS 160434, at *36 (D. Md. Nov. 18, 2016) (refusing to
grant 20% of constructive common fund with 7.5 multiplier, instead granting fees of 15% for 5.6 multiplier);
Viceral v. Mistras Group, 2017 WL 661352, at *4 (N.D.
Cal. Feb. 17, 2017) (refusing to grant 25% where 1.13 multiplier would result); Nitsch v. DreamWorks Animation
SKG, 2017 WL 2423161 (N.D. Cal. June 5, 2017) (finding
3.91 multiplier too high(amounting to 21%), awarding 2.0
multiplier (amounting to 11%)); Hillson v. Kelly Servs.,
2017 WL 3446596, at *5-*6 (E.D. Mich. Aug 11, 2017) (declining to award 25% when it amounted to 4.5 multiplier;
following Newberg’s presumptive multiplier ceiling of 4
and awarding 21.5%).
The Court should cross-check plaintiffs’ fee request
using the lodestar method, and find, for reasons discussed
below, that awarding class counsel the fee they seek would
in fact result in the type of “exorbitant hourly rate” that
the crosscheck seeks to protect against.
A. Class counsel’s proclaimed lodestar includes noncompensable hours; the actual multiplier approaches
18.
Although the lodestar cross-check does not require
the bean-counting that the base lodestar method entails,
it would “serve[] little purpose as a crosscheck if it is accepted at face value.” In re Citigroup Inc. Secs. Litig., 965
F. Supp. 2d 369, 389 (S.D.N.Y. 2013). For purposes of the
calculation, plaintiffs proffer that class counsel here has
reasonably expended a total of 2,158 hours. Fee Motion 20.

App. 91a
But district courts “should exclude” “hours that were not
reasonably expended” where cases are “overstaffed” and
hours are “excessive, redundant or otherwise unnecessary.” Hensley v. Eckerhart, 461 U.S. 424, 434 (1983).
Here, the following categories of hours should be excluded
entirely: (1) pre-Farrell time for work on other litigation
(i.e. McGee v. Bank of Am., N.A., 2015 WL 4594582 (S.D.
Fla. July. 30, 2015); Shaw v. BOKF, N.A., 2015 WL
6142903 (N.D. Okla. Oct. 19, 2015)); (2) anticipated future
hours that have not yet been expended; and (3) time spent
on class counsel’s fee application. Additionally, time spent
on settlement mediation, negotiation and drafting is excessive and should be reduced.
Contrary to Fitzpatrick’s unsupported assertion, 4
attorney time is not compensable when it is “fundamentally related to a separate legal proceeding.” Lota v. Home
Depot U.S.A, 2013 WL 6870006, at *8 (N.D. Cal. Dec. 31,
2013); In re Infospace, Inc. Secs. Litig., 330 F. Supp. 2d
1203, 1214 (W.D. Wash. 2004); Parsons v. Volkswagen, 341
P.3d 662, 667-68 (Okla. 2014). “An attorney is not entitled
to be paid in [an action] for the work he or another attorney did in some other case.” ACLU v. Barnes, 168 F.3d
423, 430 (11th Cir. 1999); cf. also Halley v. Honeywell Int’l,
861 F.3d 481, 501 (3d Cir. 2017) (vacating decision allowing

The only case Fitzpatrick cites for the proposition that “it is not
uncommon to treat time intertwined across cases as one for purposes
of the lodestar crosscheck” is In Re: Oil Spill by the Oil Rig “Deepwater Horizon” in the Gulf of Mexico, on Apr. 20, 2010, 2016 WL
6215974 (E.D. La. Oct. 25, 2016). Fitzpatrick Decl. ¶26 n.6. But that
decision has no analysis of the issue, nor the further problem of work
expended in cases spanning multiple jurisdictions.
4

App. 92a
attorney expenses from one case to be charged in settlement of another). There is good reason to treat each litigation as its own unit. While classes may overlap across
cases, they are not coextensive. For example, neither
McGee nor Shaw was brought on behalf of Farrell class
members who incurred their first extended overdrawn
balance charge in 2017 (McGee and Shaw had terminated
by then). Such class members should not be charged for
class counsel’s earlier work on behalf of other persons.
More generally, it does not “confer a benefit on the class”
to incur litigation costs from two duplicative parallel cases.
Drazin v. Horizon Blue Cross Blue Shield of N.J., 832 F.
Supp. 2d 432, 443 (D.N.J. 2011), aff’d 528 Fed. Appx. 211
(3d Cir. 2013). Further, class counsel seek to be awarded
Southern District of California rates (a blended rate of
more than $660/hr) 5 for work done in less expensive forums: Ft. Lauderdale, FL (McGee) and Tulsa, OK (Shaw).
Finally, paying class counsel for unsuccessful outside
work undermines their fundamental argument for a lodestar multiplier: that the risk of this litigation necessitates

Although Threatt does not contest class counsel’s hourly rates
per se, a blended rate of $661/hour is likely well above the typical
blended rate in this Circuit. Bruno v. Quten Research Inst., 2013 WL
990495, at *4 (C.D. Cal. Mar. 13, 2013) (blended rate of $366.87/hr);
Nguyen v. BMW of N. Am., 2012 WL 1380276, at *3 (N.D. Cal. Apr.
20, 2012) (blended rate of $470/hr); see also Gabriel Techs. Corp. v.
Qualcomm, 2013 WL 410103, at *9 (S.D. Cal. Feb. 1, 2013) (blended
rate of $447/hr is “in line with that of the community” when compared
to California peers).
5

App. 93a
a multiplier to make them whole. Thus the 343.75 hours 6
spent litigating pre-Farrell cases should be eliminated
from the lodestar.
Second, courts do not permit attorneys to include anticipated future time in their lodestar. “The law is settled
that in calculating the lodestar, the Court must use ‘the
number of hours reasonably expended on the litigation,’
and the movant ‘should submit evidence supporting the
hours worked.” See Nat’l Alliance for Accessability v.
Hull Storey Retail Group, No. 2012 WL 3853520, at *4
(M.D. Fla. Jun 28, 2012) (quoting Hensley, 461 U.S. at 433
(1983) and adding emphasis); see also 7-Eleven, Inc. v.
Etwa Enter., 2013 WL 2947112, at *5 (D. Md. Jun. 12,
2013) (“Plaintiff has not identified any authority that
would entitle it to an award of ‘anticipated legal fees and
costs,’ nor is the court aware of any.”); St. Hilaire v. Indus. Roofing, 346 F. Supp. 2d 212, 215 (D. Me. 2004) (rejecting “Plaintiff’s bald projection of reasonable future
fees without corroborating support in the record”). The 88
anticipated future hours 7 should be excluded.

See Decl. of Jeff Ostrow (Dkt. 80-4) ¶10.2; Decl. of Hassan
Zavareei (Dkt. 80-5) ¶16.2; Decl. of Cristina M. Pierson (Dkt. 80-6)
¶6.2; Decl. of Bryan S. Gowdy (Dkt. 80-7) ¶7.2. The fact that counsel
channeled more than five times greater effort into this case in comparison to the unsuccessful McGee and Shaw also demonstrates why
a multiplier is not warranted.
6

See Ostrow Decl. ¶¶10.15-10.16; Zavareei Decl. ¶¶16.15-16.16;
Pierson Decl. ¶¶6.15- 6.16; Gowdy Decl. ¶¶7.13, 7.16.
7

App. 94a
Third, “[t]ime spent obtaining an attorneys’ fee in
common fund cases is not compensable because it does not
benefit the plaintiff class.” WPPSS, 19 F.3d at 1999; accord Manner v. Gucci Am., Inc., 2016 WL 6025850, at *4
(S.D. Cal. Oct. 13, 2016). The 64.75 8 hours spent on the fee
application should be excluded.
Fourth, class counsel includes an excessive 561.75
hours 9 spent on settlement mediation, negotiation and
drafting. See Dugan v. Lloyds Tsb Bank, No. C 12-02549,
2014 WL 1647652, at *4 (N.D. Cal. Apr. 24, 2014) (327
hours for class settlement negotiation “is excessive”). The
root of the overbilling is that plaintiffs involved at least 8
high-priced attorneys in the settlement process. See
Makaeff v. Trump Univ., 2015 WL 1579000, at *14 (S.D.
Cal. Apr. 9, 2015) (it was “excessive to have three partners
participating in the settlement conference”); Reyes v.
Bakery & Confectionary Union, 2017 WL 6623031, at *11
(N.D. Cal. Dec. 28, 2017) (“no ... justification for having
five partners attend the mediation”; reducing time by
60%). Threatt recommends that the Court reduce time
spent on settlement to 300 hours to account for the duplication and inefficiency of so many attorneys.
All said, the proclaimed 2,158 hours are due to be reduced by approximately 758 hours, bringing the compensable hour count to 1399.75 hours. Keeping constant class

Ostrow Decl. ¶10.14; Zavareei Decl. ¶16.14; Pierson Decl. ¶6.14;
Gowdy Decl. ¶7.14.
8

Ostrow Decl. ¶10.10; Zavareei Decl. ¶16.10; Pierson Decl. ¶6.10;
Gowdy Decl. ¶7.10.
9

App. 95a
counsel’s blended rate of $661.74/hour—itself remarkably
high—class counsel’s actual lodestar amounts to
$926,278.72, and actual requested multiplier is almost 18.
In other words, class counsel seeks a total fee award equal
to a fee of $11,894/hour of compensable work.
B. A multiplier of 18 or of 11 is unreasonable.
“[T]here is a strong presumption that the lodestar
is sufficient” without an enhancement multiplier. Perdue
v. Kenny A, 559 U.S. 542, 546 (2010). Kenny A. allocates
“the burden of proving that an enhancement is necessary
[to] the fee applicant.” Id. at 553. A lodestar enhancement
is only justified in “rare and exceptional” circumstances
where “specific evidence” demonstrates that an unenhanced “lodestar fee would not have been adequate to attract competent counsel.” Id. at 554; accord Hyundai, 881
F.3d at 706-07. Here, there was no trouble attracting
counsel as there are four firms serving as class counsel
who achieved a quick settlement for a small fraction of potential recovery. A multiplier of 18 or 11 is outside the permissible range of outcomes.
Kenny A’s limitation on enhancements was made in
the context of interpreting 42 U.S.C. § 1988’s language of
“reasonable” fee awards, but there’s little justification for
claiming that “reasonable” in § 1988 means something different than “reasonable” in class action fee awards made
under Fed. R. Civ. P. 23(h). E.g., Hyundai, 881 F.3d at
706-07 (applying Kenny A. to Rule 23(h) fee award pursuant to settlement); Bluetooth, 654 F.3d at 942 n.7 (“the
Kerr factors only warrant a departure from the lodestar
figure in rare and exceptional cases”) (internal quotation
omitted); In re Sears Roebuck & Co. Front-Loading

App. 96a
Washer Prods. Liab. Litig., 867 F.3d 791 (7th Cir. 2017)
(applying Kenny A. to reduce 1.75 multiplier to 1); In re
Pet Food Prods. Liab. Litig., 629 F.3d 333, 361 (3d Cir.
2010) (Weis, J. concurring/dissenting) (referring to Kenny
A. as an “analogous statutory fee-shifting case.”); Weeks
v. Kellogg Co., 2013 WL 6531177, at *34 n.157 (C.D. Cal.
Nov. 23, 2013) (citing Kenny A. and finding “little basis for
an application of a multiplier” when calculating lodestar
cross-check). All but one case cited by Fitzpatrick (Fitzpatrick Decl. ¶26) that awarded a significant multiplier
predates Kenny A., and that one outlier was an out-of-circuit decision that did not mention Kenny A. Beckman v.
Keybank, N.A. 293 F.R.D. 467 (S.D.N.Y. 2013) (endorsing
multiplier of 6.3). Indeed the very sentence plaintiffs rely
on from Beckman—“courts regularly award lodestar multipliers of up to eight times lodestar, and in some cases,
even higher multipliers”—has been criticized as having
“made its way into many court ‘decisions’ in [the Second]
Circuit via proposed orders drafted by plaintiffs’ attorneys.” Fujiwara v. Yasuda LTD., 58 F. Supp. 3d 424, 437
(S.D.N.Y. 2014). But in reality, “the cases cited … in support of this proposition provide weak support for such loft
multipliers.” Id. at 438. 10
In fact, the Third Circuit has “strongly suggest[ed]”
that a multiplier of 3 is an “appropriate ceiling for a fee
award.” In re Cendant Corp. PRIDES Litig., 243 F.3d

It is true that Vizcaino “noted” a multiplier as high as 19.6, but
it never endorsed such a multiplier. The case involved only a 3.65 multiplier, and observed also that 83% of the multipliers it surveyed were
less than 4.0. See 290 F.3d at 1051 n.6.
10

App. 97a
722, 742 (3d Cir. 2001) (vacating award that amounted to a
multiplier of 7 or 10). Likewise, the Seventh Circuit has
suggested that a multiplier of 2 might be a “sensible ceiling” to avoid unwarranted attorney windfalls.” E.g. Florin
v. Nationsbank, 34 F.3d 560, 565 (7th Cir. 1994). And
while, Vizcaino ratified a 3.65 multiplier in 2002, the Ninth
Circuit has more recently been skeptical of multipliers
even less than 2. See Hyundai, 881 F.3d at 706-07 (doubting propriety of 1.22 multiplier); In re Magsafe Apple
Power Adapter Litig., 571 Fed. Appx. 560, 564 (9th Cir.
2014) (doubting propriety of 1.51 multiplier). Class counsel fail to provide a proper legal basis for the requested
multiplier here. A multiplier “may not be awarded based
on a factor that is subsumed in the lodestar calculation”—
either in the number of hours or hourly rate. Kenny A.,
559 U.S. at 553. Thus, “the novelty and complexity of a
case generally may not be used as a ground for an enhancement because these factors presumably are fully reflected in the number of billable hours recorded by
counsel.” Id. (cleaned up); accord Bluetooth, 654 F.3d at
942 n.7; Brown v. 22nd Dist. Agricultural Ass’n, 2017 WL
3131557, at * 7 (S.D. Cal. Jul. 21, 2017) (quoting Blum v.
Stenson, 465 U.S. 886, 899 (1984)). Similarly, a multiplier
based on outstanding results requires “exceptional success” beyond the “expectancy of excellent or extraordinary results” already baked into high hourly rates.
WPPSS, 19 F.3d at 1304; accord Rodriguez v. Barrita,
Inc., 53 F. Supp. 3d 1268, 1287 (N.D. Cal. 2014); Brown,
2017 WL 3131557, at * 7.
The settlement provides the class with less than 10%
of its potential damages, with cash payouts of less than 5%
of potential damages. Meanwhile, class counsel requests
an 11 multiplier that is in reality an 18 multiplier, equating

App. 98a
to fees of more than $11,000/hour. “[T]he class is being
asked to ‘settle,’ yet Class Counsel has applied for fees as
if it had won the case outright.” Sobel v. Hertz, No. 3:06CV-00545, 2011 WL 2559565, at *14 (D. Nev. Jun. 27,
2011).
Besides outstanding results, the other basis plaintiffs offer for an enhancement multiplier is the riskiness of
the litigation. Fee Motion 13-14. But “the weak strength
of Plaintiffs’ case should not constitute a ‘special circumstance’ justifying enhancement of the fee award.” Viceral,
2017 WL 661352, at *3. “This rationale would have the perverse effect of rewarding counsel for taking on weak or
otherwise dubious cases” amounting to a “no lose proposition.” Id. Rewarding weak cases more than strong cases
is, to put it nicely, an “uncomfortable rule.” Kmiec v.
Powerwave Tech., 2016 WL 5938709, *5 (C.D. Cal. Jul. 11,
2016); see also Hyundai, 881 F.3d at 706-07 (rejecting
multiplier based on risk and complexity of case).
Even if risk multipliers are sometimes appropriate,
granting the excessive one requested here is inappropriate for several reasons. Class counsel (1) included time
spent on unsuccessful outside litigation in its lodestar accounting, effectively insuring away risk by seeking compensation whether they win or lose; (2) demonstrated the
ability to funnel most of its hours to successful litigation
and away from unsuccessful litigation; (3) took little opportunity risk in pursuing an overdraft action, an area
with which it has great familiarity, and; (4) reached an
early settlement. A 10% fee award of the undiscounted
overinflated settlement value ($6.66 million) still amounts
to a multiplier of 4.75. That stands at the outer limits of
what this Court should permit.

App. 99a
V. The percentage of recovery requested by class counsel is excessive and should be reduced to augment class
recovery.
The fee request is excessive even if the Court relies
exclusively on the percentage-of-recovery approach.
Again, “courts cannot rationally apply any particular percentage—whether 13.6[%], 25[%] or any other number—
in the abstract, without reference to all the circumstances
of the case.” Vizcaino, 290 F.3d at 1048 (cleaned up). Here,
there are several circumstances that make a $16.6 million
fee based on the 25% benchmark independently excessive.
First, the $66 million that plaintiffs use as the denominator in the calculation is not all cash and should not
be valued as equivalent to such in the fee analysis. Under
the settlement, BANA will pay $37.5 million in cash and
reduce debt currently owed by class members whose accounts were closed while an EOBC was still due by $29.1
million. Settlement §2.2(b). This structure costs BANA
and benefits class members far less than the $66.6 million
aggregate figure suggests because the “debt reduction” is
worth less than cash to class members and costs BANA
significantly less than a cash payment. Either the percentage should be reduced or the $29.1 million of debt reduction should be heavily discounted to account for its lower
value.
The parties do not disclose whether BANA has already sold any debt from the closed, overdrawn accounts
or how it otherwise has accounted for the debt. BANA
may have sold the debt for mere pennies on the dollar or
may not expect to recover anything from the accounts and

App. 100a
have already written them off. (At least some of the class
members with overdrawn accounts would have declared
bankruptcy and had debts extinguished.) While these
questions remain open, there is no question that BANA
would not have recovered 100% of the $29.1 million debt
eligible for reduction under the settlement. If a consumer
has not paid her balance within 60 days—typically the
length of time before a bank will close an overdrawn account—and has her account closed, the likelihood of later
repayment is low.
At the same time, class members are worse off with
debt reduction than cash. The parties do not disclose how
many of these former accountholder-class members owe
more than $35. (Since the $35 represents a credit of one
EOBC, it is likely that many of them owe more than that
amount because a negative balance is what would have
triggered the EOBCs.).
As a result, it is not surprising that class attorneys
commonly seek less than the 25% benchmark where the
settlement relief includes debt reduction, even when
courts recognize that such relief is of some benefit to class
members. E.g., Smith v. CRST Van Expedited, 2013 WL
163293 (S.D. Cal. Jan. 14, 2013) (approving request for
33.3% of cash payment, equaling 7.5% of settlement that
included $2.6 million in cash and $9 million in debt relief,
without including outreach to credit agency outreach and
changes to training); Cosgrove v. Citizens Auto. Finance,
2011 WL 3740809, at *9-*10 (E.D. Pa. Aug. 25, 2011) (approving request for 11.7% of cash and debt relief without
including value of credit repair).

App. 101a
Second, the percentage should be reduced to account for the economies of scale represented by the large
settlement fund. “Absent unusual circumstances, the percentage will decrease as the size of the fund increases.”
Alexander, 2016 WL 3351017, at *1 (quoting a previous
order of the court) (cleaned up). The Ninth Circuit has
thus instructed that where, for example, awarding 25% of
a “megafund” settlement yields “windfall profits for class
counsel in light of the hours spent on the case, courts
should adjust the benchmark percentage or employ the
lodestar method instead.” Bluetooth, 654 F.3d at 942-43.
This holding reflects that “[t]he existence of a scaling effect—the fee percent decreases as class recovery increases—is central to justifying aggregate litigation such
as class actions. Plaintiffs’ ability to aggregate into classes
that reduce the percentage of recovery devoted to fees
should be a hallmark of a well-functioning class action system.” Theodore Eisenberg & Geoffrey P. Miller, Attorney
Fees and Expenses in Class Action Settlements: 19932008, 7 J. EMPIRICAL LEGAL STUD. 248, 263 (2010). Failing to apply a sliding scale will result in overcompensating
law firms “who obtain huge settlements, whether by happenstance or skill, … to the detriment of the class members they represent.” Wal-Mart Stores v. Visa USA, 396
F.3d 96, 122 (2d Cir. 2005).
At $66.6 million, this settlement at least approaches
“megafund” status and, in any event, is large enough to
implicate windfall concerns. Due to economics of scale,
“[i]t is not [66] times more difficult to prepare, try, and
settle a [$66] million case than it is to try a $1 million case.
In many instances, the increase in recovery is merely a
factor of the size of the class and has no direct relationship
to the efforts of counsel.” Alexander, 2016 WL 3351017, at

App. 102a
*1 (cleaned up). Such is the case here. The settlement class
includes approximately 5.9 million people. Notice § 5.
Plaintiffs do not claim any added difficulty from the size of
the class. Rather, the primary challenges were due to uncertainty over how certain legal issues involving the
EOBCs would be resolved. Fee Motion 12-13. The work
would have been the same whether there were 59 accountholders or 5.9 million. The 8-figure recovery is
simply a result of plaintiffs targeting a large company.
No other factor justifies the windfall 25% sought by
plaintiffs’ counsel either. As discussed above, the result
here was far from extraordinary, with class counsel compromising over 90% of the value of the class’s claims.
Counsel billed under 2200 hours on the case (and less than
half of that on actual litigation of this case), settling about
20 months after filing the initial complaint. In other words,
class counsel seek over $16.6 million for what amounts to
barely more than one attorney-year of work. Few private
attorneys, associate or partner, make an annual salary of
$16.6 million. Plaintiffs try to explain away the significance of this factor, Fee Mem. 15, but, in reality, they had
put little time or resources on the line by the time of settlement. See Walsh v. Popular, Inc., 839 F. Supp. 2d 476,
483-84 (D.P.R. 2012) (reducing fees from 33% to 23% of
$8.2 million fund where full discovery was not conducted
in case involving “complicated web of jurisprudence” and
motion to dismiss but no motion for summary judgment
had been filed).
Further, while it is true, as reflected in class counsel’s citations to cherry-picked case law, that courts have
awarded fees of 25% or higher even in larger cases, empirical studies demonstrate that courts apply a sliding

App. 103a
scale to prevent a windfall for plaintiffs’ attorneys at the
expense of the class. This is reflected even in the empirical
work of plaintiffs’ expert. Fitzpatrick has found that “fee
percentages are strongly and inversely associated with
the size of the settlement” and “the age of the case is positively associated with fee percentages.” Brian T. Fitzpatrick, An Empirical Study of Class Action Settlements and
Their Fee Awards, 7 J. EMPIRICAL LEGAL STUD. 811, 814
(2010). For settlements in the $30 million to $72.5 million
range for the study’s two-year period, the scaling effect is
apparent, with mean and median percentages of 22.3%
and 24.9%, respectively. Id. at 839. See also, e.g., Allen v.
Dairy Farmers of Am., No. 5:09-cv230, 2016 WL 3361544,
at *8-*9 (D. Vt. June 14, 2016) (reducing fee from 33% to
14% of $80 million fund to augment recovery). In a short
litigation such as this, where the fund is relatively large,
and the class recovery relatively small compared to the
amount sought by the complaint, then, a percentage further below the benchmark is appropriate.
That plaintiffs’ counsel have retention agreements
with the named plaintiffs setting their fees at 33.33%
should not alter the Court’s analysis. Such agreements
“are owed little weight, given that named plaintiffs are
usually paws of the class lawyers, and do not have a sufficient stake to drive a hard—or any—bargain with the lawyer[s].” Gehrich v. Chase Bank U.S., 316 F.R.D. 215, 235
(N.D. Ill. 2016) (cleaned up); Sinanyan v. Luxury Suite
Int’l, No. 2:15-cv-00225-GMN-VCF, 2016 WL 4394484, at
*3 n.3 (D. Nev. Aug. 17, 2016) (court must fully assess reasonableness of fee regardless of percentage agreed to by
class representative).

App. 104a
Finally, the change in BANA’s business practices
will not benefit class members and thus does not provide
any support for a higher percentage of recovery. Class
counsel do not directly ask for fees to be based on the espoused benefit of the change but mention “nonmonetary
benefits” as a relevant consideration, and their expert
opines that an upward departure where such benefits are
achieved will incentivize class counsel to secure nonmonetary relief. See Fee Mem. 16-17; Fitzpatrick Decl. ¶21. The
problem, however, is that accountholders will not actually
benefit. They will not “save” the estimated hundreds of
millions of dollars in EOBC fees resulting from the change
in practice.
Instead, BANA will simply charge accountholders
other fees to make up for the revenue loss, leaving them
no better off than if EOBCs were undisturbed. The effect
of the Durbin Amendment to the Dodd-Frank financial reform legislation is illustrative. That amendment capped
debit card interchange fees for large banks. The cap cut
the average interchange fee for covered banks by about
50% per transaction, reducing annual revenues from these
fees by $6-$8 billion. The banks nevertheless found ways
to recover these lost revenues. For example, they reduced
the availability of free accounts, tripled the minimum holding for free accounts, and doubled the monthly fee on nonfree accounts, contributing to many with lower incomes
leaving the banking system. Todd J. Zywicki, et al., Price
Controls on Payment Card Interchange Fees: The U.S.
Experience, George Mason Law & Economics Research
Paper No. 14-18 (2014).

App. 105a
Proverbially, there is no such thing as a free lunch.
Accountholders who may be at risk of extended overdrawn balances will not suddenly receive a free benefit
from BANA. Many of them may get frozen out of the
banking system, or they will incur higher monthly account
fees. Plaintiffs have not made any showing to overcome
this economic reality, yet they carry the burden of showing that class members will benefit from the settlement
relief and of establishing a factual basis to support the requested fees. See Koby, 846 F.3d at 1079; Johnston v. Comerica Mortg. Corp., 83 F.3d 241, 246 (8th Cir. 1996). Nor
have they established that BANA would not have changed
its EOBC practice for business reasons and to avoid further litigation in the absence of the settlement. Koby, 846
F.3d at 1080.
VI. The Court should strike or disregard the Fitzpatrick Declaration.
Threatt asks the Court to strike or, in the alternative, to disregard the Fitzpatrick Declaration because it
contains inadmissible legal conclusions and other legal arguments regarding the calculation of attorneys’ fees. Testimony regarding matters of law is inadmissible under
either Rule 701 or 702 because “[r]esolving doubtful questions of law is the distinct and exclusive province of the
trial judge.” Nationwide Transport Finance v. Cass Info.
Sys., 523 F.3d 1051, 1058 (9th Cir. 2008) (internal quotation omitted). It is well established that “that expert testimony by lawyers, law professors, and others concerning
legal issues is improper.” Pinal Creek Group v. Newmont
Mining Corp., 352 F. Supp. 2d 1037, 1043 (D. Ariz. 2005).
Such legal opinions invade this Court’s province as the
“sole arbiter of the law.” GPF Waikiki Galleria v. DFS

App. 106a
Group, 2007 WL 3195089, at *5 (D. Haw. Oct. 30, 2007).
“[T]he court is well equipped to instruct itself on the law.”
Stobie Creek Invs. v. United States, 81 Fed. Cl. 358, 361
(Ct. Fed. Cl. 2008), aff’d 608 F.3d 1366 (Fed. Cir. 2010).
Having recently and successfully moved to strike expert
testimony similar to Fitzpatrick’s for offering legal opinions on the reasonableness of fees, class counsel should be
familiar with these principles. See Stathakos v. Columbia
Sportswear, No. 15-cv-04543, 2018 WL 1710075, at *5 n.6
(N.D. Cal. Apr. 9, 2018).
Here, the plaintiffs’ expert seeks to usurp the
Court’s role by telling the Court which of the available
methodologies it should use and how to apply it to award
fees and concluding that “this fee request is within the
range of reason” under his review of the law. E.g., Fitzpatrick Decl. ¶¶8, 11-12, 19. The Fitzpatrick Declaration predominantly analyzes case law, not facts. Class counsel
may argue that the declaration presents factual “empirical
data,” but the declaration consists of little more than discussion of Fitzpatrick’s interpretation of the case law and
improper legal opinion dressed up as statistics, but derived exclusively from case law. (He also usurps the
Court’s role by opining on the value of BANA’s change in
practice regarding EOBCs and the risk in litigating over
EOBCs without establishing any authority by which to do
so. E.g., id. ¶¶14, 19.) Citations to case law remain legal
argument when the case law is averaged, and this is especially true when the averages are stretched into dubious
legal conclusions. District courts often approve unopposed
fee requests, and Fitzpatrick does not discuss how the
characteristics of the averaged cases fare in comparison to
this case. “Expert testimony” which simply surveys the
law ought to be excluded under Rule 702. See Lukov v.

App. 107a
Schindler Elevator Corp., 2012 WL 2428251, at *2 (N.D.
Cal. June 26, 2012) (excluding expert opinion based on
“survey of state laws”); Heighley v. J.C. Penney Life Ins.
Co., 257 F. Supp. 2d 1241, 1260 & n.23 (C.D. Cal. 2003)
(striking “interpretations of case law”).
To the extent the Court considers the declaration,
Fitzpatrick’s opinion supports a deterrence-based classmembers-don’t-matter approach that would hold that it is
appropriate to pay the attorneys 100% of the fund—and
indeed, he has taken that position in his writings. Brian T.
Fitzpatrick, Do Class Action Lawyers Make Too Little?,
158 U. PA. L. REV. 2043, 2047 (2010). It is little wonder that
he is willing to endorse a contingency fee that pays the attorneys over $7700/hour—despite the fact that his own
empirical work shows that a sub-25% fee is more typical in
a settlement of this magnitude—and to excuse those characteristics that favor a downward adjustment, such as
length of litigation and double-digit lodestar multiplier.
See Fitzpatrick, supra, 7 J. EMPIRICAL L. STUD. at 836,
839. This Court should join others in refusing to follow
Fitzpatrick’s opinion and apply its own discretion to award
a more reasonable fee than the windfall requested by
counsel. E.g., In re Volkswagen “Clean Diesel” Mktg.,
Sales Practices, & Prod. Liab. Litig., 2017 WL 1352859, at
*3 (N.D. Cal. Apr. 12, 2017).
CONCLUSION
For the foregoing reasons, the Court should deny
settlement approval until the parties agree to amend the
cy pres provision and reduce attorneys’ fees to $6.66 million.

App. 108a
Dated: April 20, 2018
Respectfully submitted,
/s/ Theodore H. Frank
Theodore H. Frank (SBN 196332)
COMPETIVE ENTERPRISE INSTITUTE
CENTER FOR CLASS ACTION FAIRNESS
1310 L Street NW 7th Floor
Washington, DC 20005
Email: ted.frank@cei.org
Telephone: (202) 331-2263
Attorney for Objector Rachel Threatt

App. 109a
I, Rachel Threatt, am the objector. I sign my this
written objection drafted by my attorneys as required by
the Court’s Preliminary Approval Order (Dkt. 72) ¶ 4(a)(i)
and Class Notice § 14.
/s/ Rachel Threatt
Rachel Threatt

